<html>
<title> - THE MIDWEST METHAMPHETAMINE EPIDEMIC</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                  THE MIDWEST METHAMPHETAMINE EPIDEMIC

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2000

                               __________

                           Serial No. 106-226

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               ----------

                   U.S. GOVERNMENT PRINTING OFFICE
72-448                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                   Charley Diaz, Congressional Fellow
                           Ryan McKee, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 26, 2000....................................     1
Statement of:
    Frisbie, Joe, chief, Sioux City Police Department; Marti J. 
      Reilly, Tri-State Drug Task Force; and Penny Westfall, 
      commissioner of public safety, State of Iowa...............    10
    Phillips, Linda, executive director, Siouxland Cares; and 
      Carla Van Hofwegen, president, board of directors, Hava 
      Java.......................................................    50
    Schoon, Leroy, president, Schoon Construction; and Jamey 
      Miller, Rudy Salem Staffing Services.......................    70
Letters, statements, etc., submitted for the record by:
    Frisbie, Joe, chief, Sioux City Police Department, prepared 
      statement of...............................................    13
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Phillips, Linda, executive director, Siouxland Cares, 
      prepared statement of......................................    53
    Reilly, Marti J., Tri-State Drug Task Force, prepared 
      statement of...............................................    20
    Schoon, Leroy, president, Schoon Construction, prepared 
      statement of...............................................    72
    Van Hofwegen, Carla, president, board of directors, Hava 
      Java, prepared statement of................................    62
    Westfall, Penny, commissioner of public safety, State of 
      Iowa, prepared statement of................................    27

 
                  THE MIDWEST METHAMPHETAMINE EPIDEMIC

                              ----------                              


                         MONDAY, JUNE 26, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Sioux City, IA.
    The subcommittee met, pursuant to notice, at 9 a.m., in 
room 6, Sioux City Convention Center, Sioux City, IA, Hon. John 
L. Mica (chairman of the subcommittee) presiding.
    Present: Representative Mica.
    Also present: Representatives Latham and Thune.
    Staff present: Charley Diaz, congressional fellow; and Ryan 
McKee, clerk.
    Mr. Mica. Good morning. I'd like to call this hearing of 
the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. I'm John Mica, and I Chair this 
subcommittee of the Government Reform Committee of the House of 
Representatives.
    The order of business this morning will be first I will 
begin our hearing with an opening statement, then I will yield 
to other Members for their opening comments.
    This morning our subcommittee has three panels to hear 
from, and we will proceed in hearing those three panels and the 
witnesses assembled this morning. Just for information of those 
attending, this is an investigations and oversight subcommittee 
of the U.S. House of Representatives, and this is one of the 
hearings that we're conducting on the problem of drug abuse and 
illegal narcotics. The title of today's hearing is Midwest 
Methamphetamine Epidemic. We will proceed in that order.
    As chairman of the Criminal Justice, Drug Policy, and Human 
Resources Subcommittee, it's my responsibility to help oversee 
our Nation's drug control efforts in the U.S. House of 
Representatives. We've come to Sioux City, IA, in the Heartland 
of America this morning to conduct an oversight field hearing 
in an effort to understand what's going on throughout the 
Nation and particularly here in the Heartland dealing with our 
Nation's drug crisis. Congressional field hearings are a very 
crucial part of our work because they allow us to gain a 
national perspective through the eyes of local citizens and 
local officials. Today, we'll learn about the manufactured use 
and trafficking of illegal drugs here in Iowa and the 
surrounding regions.
    I had a little geography lesson this morning realizing how 
this is a tri-State area bordering South Dakota and also 
Nebraska and the tremendous impact illegal narcotics have had 
on these communities in this region of our country. Our focus 
in this morning's hearing is the growing methamphetamine 
epidemic that's ravaging the Midwest.
    We're privileged to have with us today a congressional 
leader who strongly supports efforts to protect our communities 
from the ravages of illegal narcotics. I am here foremost at 
the invitation of that Representative, Tom Latham, who during 
my year and a half as chairman of the Drug Policy Subcommittee 
has constantly reminded me about the need to pay attention to 
all of America, particularly this region, and the impact of 
illegal narcotics, and I thank him for his leadership in that 
regard and also for the invitation to be with you today and 
visit this community.
    We're also joined by another leader in the House of 
Representatives, John Thune, who represents the adjacent 
district in South Dakota. He also has taken on a leadership 
role in trying to find answers to this plaguing question that 
we have a problem of illegal narcotics, and I thank him for 
joining us on our panel this morning.
    Growing up in rural America used to be a shield against the 
seedier side of America's urban culture, including the problem 
of illegal drugs.
    Unfortunately, all that's changed. The National Center for 
Addiction and Substance Abuse recently announced that the rate 
of drug use among teens in rural America is now higher than the 
Nation's large urban centers.
    In a White Paper which was published last January, the 
center found that eighth graders living in rural America were 
104 percent more likely to use amphetamines, including 
methamphetamines, 83 percent more likely to use crack cocaine, 
and 34 percent more likely to smoke marijuana than kids in the 
urban areas. These sobering statistics should serve as a wake-
up call to parents and community leaders across the Midwest. 
Your kids are in fact at risk. Drugs are no longer just a big 
city problem.
    Nationwide drugs directly killed 15,973 Americans in 1998. 
That's our last year of reported statistics. And many of those 
unfortunately are young people. The number of all drug-related 
deaths is much higher, and Barry McCaffrey, our national drug 
czar, testified before this subcommittee and said we've lost in 
the last year more than 52,000 Americans as a result of both 
direct and indirect causes related to illegal narcotics. This 
is in fact a staggering figure when you consider that in the 
whole of the Vietnam war we lost 58,000 Americans. We're losing 
that many almost every year in this battle with illegal 
narcotics. Additionally drugs cost our society, and the range 
is somewhere between $110 billion and a quarter of a trillion 
dollars annually, $110 billion to a quarter of a trillion 
dollars annually. Clearly much more must be done to combat the 
scourge.
    We're honored to have testifying before us today a number 
of State and local officials as well as everyday citizens who 
are actively engaged here in responding to the drug crisis and 
its terrible consequence on the youth of this region. These 
individuals serve on the front lines in preventing, educating 
and treating illegal drug use, both in our schools and in our 
communities as well as enforcing our laws. They are most in 
need of our support and assistance at the Federal level, and 
also in joining together in a cooperative effort.
    This subcommittee is particularly interested in how many 
communities and how our communities and regions are dealing 
with the critical responsibilities of successfully implementing 
our national, I say a national drug control strategy, not just 
a Federal drug control strategy. It is important that this 
again be a cooperative and coordinated effort. After all, State 
and local officials have their finger on the pulse of the 
community and can best respond to threats like the illegal drug 
epidemic we're facing. In Congress we try to ensure that the 
Federal Government is doing everything possible to assist you, 
both in reducing the supply of illegal narcotics as well as the 
demand for illegal drugs.
    Today, we're focusing on regional challenges and threats, 
like Iowa and again this tri-State region. As we'll hear, 
illegal drug production, use and trafficking pose special 
changes and dangers to the schools, communities, law 
enforcement agencies and officials in this region. The State of 
Iowa and the Midwest are increasingly becoming a primary 
consumption area for methamphetamine. While many of the 
methamphetamines are imported from large labs in Mexico and 
California, within the last several years this area has 
experienced a dramatic increase in the number of clandestine 
methamphetamine manufacturing labs. In fact in looking at the 
statistics that were provided to me by staff, from 8 meth labs 
that were seized in 1995, that's only 5 years ago there were 8, 
to I'm told more than 500 were seized in 1999, last year, a 
dramatic number, particularly given the population of this 
region.
    These labs which use volatile precursor chemicals in 
dangerous combinations pose an added risk to the dealers, to 
law enforcement officials and to the entire community here.
    In response to this terrible methamphetamine problem as 
well as the continuing problems with a host of other illegal 
drugs, Iowa along with Nebraska, Missouri, Kansas, North and 
South Dakota, has been designated by the Office of National 
Drug Control Policy as a high intensity drug trafficking area 
[HIDTA]. Our subcommittee is responsible for authorizing and 
overseeing the HIDTA program. We have 31 HIDTAs now across the 
Nation to help Federal, State and local law enforcement 
entities better coordinate investigations, share intelligence, 
resources and conduct law enforcement operations. Today, we'll 
learn more about the effectiveness and operations of the 
Midwest HIDTA, hope to have a report on that, including what 
progress it is making in combating illegal narcotics in this 
area.
    I might say also that I'm extremely pleased at the 
leadership Mr. Latham has taken in helping create a regional 
training center here which I believe is the only center in the 
United States to provide free training assistance to the local 
agencies particularly dealing with the meth epidemic that you 
have had here. I salute him on putting that effort together and 
we'll hear a little bit about its success and challenges in 
this hearing.
    Again, I applaud the continuing dedication and 
professionalism of the witnesses who appear before us today, 
their willingness to share their ideas, their needs, their 
recommendations with us. In Congress we always find the best 
ideas from those that we represent, and we try to take those 
ideas back and incorporate them in our policy, and it is 
particularly important to our subcommittee that we find 
successful solutions and cooperative efforts to face this great 
challenge. And I might say too, I've been involved in many 
things in business, in my life and personally, and I have never 
seen a challenge like this that we face. It's just an 
unbelievable challenge. I'm here in the Midwest today. We've 
been in California. We've been in Louisiana, Texas. We've been 
in Baltimore, around the Nation. And you aren't alone. We are 
also facing an incredible challenge with this drug threat and 
the problems that it has caused for not only this community but 
our whole Nation.
    I can assure you that the Representatives that we have here 
today will be working with our subcommittee and with the other 
committees involved in Congress to do everything we can to 
assist you in ridding your community and others of the deadly 
poison that is affecting our loved ones. I think all of us 
recognize that this drug crisis demands a full utilization of 
all available resources and very close cooperation in a 
comprehensive regional and national effort. After all that's 
what HIDTAs have been designed to do and it's our job in 
Congress to monitor and ensure their success. If obstacles are 
identified then we must move to decisively overcome them. This 
community, this State and this Nation really can't afford to 
wait. The drug crisis demands promising approaches and decisive 
action, and we must act now.
    Again I want to thank the witnesses for appearing before 
us, and I want to thank my colleagues, Mr. Latham for the 
invitation to be here, Mr. Thune also for his leadership on 
this issue and both of them representing this area again on 
this tremendous problem.
    With those comments I'm pleased at this time to yield to 
the gentleman from Iowa, Mr. Latham.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T2448.001
    
    [GRAPHIC] [TIFF OMITTED] T2448.002
    
    Mr. Latham. Thank you very much, Mr. Chairman. And I very 
much appreciate your taking special efforts to get here. We had 
the opportunity to have breakfast together this morning and to 
hear the saga of Mr. Mica making it to Sioux City yesterday 
coming from upstate New York yesterday and the various flights 
and challenges that you faced to get here. Very much 
appreciated. And what is most appreciated is your tremendous 
leadership in Congress on this most important issue I believe 
as far as the future for our young people, and really gets to 
the whole fabric of what our society believes it should be in 
maintaining the kind of society that we can all be proud of. I 
also want to thank John Thune, my very good friend and 
neighbor, for being here and his leadership in Congress on this 
issue.
    We really became aware in the last 5 years of what is a 
tremendously changing dynamic and problem in this part of the 
country. As you stated before, back in 1995 there were eight 
meth labs. Last year over 500. I think that's just what the 
State officials found. In addition to that with the DEA records 
there's another several hundred actually in the State of Iowa. 
But this is an epidemic that has absolutely exploded before us.
    With your leadership, Mr. Chairman, and efforts in Congress 
and the administration, I think we've made some very positive 
steps for, No. 1, looking at the interdiction problem, coming 
from other countries, No. 2, being of assistance to local law 
enforcement which has done a great challenge. There are 
differing ideas in Congress as to how to approach this problem, 
and who to support. I personally think that by supporting 
people on the ground, local law enforcement, that that is the 
way to go, because they are the ones that have to deal on a day 
to day basis with the problem.
    The education programs that we're seeing today in the 
Siouxland area was 1 of the 12 original pilot programs as far 
as the education efforts, and what we found there was that with 
the media messages that were going out we had a great effect on 
young children. But when we got to the high school age there 
was much less effect. What the most important part of that 
effort is is to finally have parents become aware of the fact 
that if they will simply sit down and talk to their children 
about this problem, that is in fact the most effective method 
of influencing these children never to get involved in drugs. 
And it's something that I think we as parents today think 
someone else is going to talk to our kids. Unfortunately it's 
going to be the drug dealer. If we don't talk to them somebody 
else will, and that person doesn't have their best hope and 
aspirations in mind for them. They want to sell them drugs.
    Treatment has also become a very, and is always a very 
important part of the four-pronged strategy that we're trying 
to put forward. And that is something that we in Congress are 
putting more and more money into, trying to make sure the 
treatment is available. But as people here in this district all 
know, and I've had 23 county-wide drug meetings, drug awareness 
meetings throughout this 30-county district. And it becomes 
more and more apparent that in fact what we have to do is to 
have all parents aware of what's going on, be a joint effort 
with communities, with the churches, with the schools, with the 
community groups involved to really approach this problem in a 
unified basis, to make sure that there is a statement in our 
society about zero tolerance for drugs. And if we can do that I 
think we've set a standard in our communities. We do not want 
to destroy what is very, very good about the upper Midwest, 
about Iowa, South Dakota, Nebraska, and this I think is the 
biggest threat to the long-term well being and safety of this 
whole part of the country.
    So again I want to thank you very much, Mr. Chairman, for 
being here and making extraordinary efforts to be here. And I 
really look forward to the testimony from great people who are 
devoting their lives to addressing this problem, and these are 
the folks here who are going to solve it. Thank you, Mr. 
Chairman.
    Mr. Mica. Thank you. Driving tornadoes, thunderstorms, 
going through three different airports to get here, I don't 
think there's anything that would have kept me from this, 
because Mr. Latham has repeatedly brought this community and 
this region problem to my attention, and I was going to be here 
come hell or high water. Again thank you.
    I'm pleased now to yield to the gentleman from South 
Dakota, Mr. Thune.
    Mr. Thune. Thank you, Mr. Chairman. Let me echo my 
colleague from Iowa and say welcome to Siouxland as we like to 
call it here. Thank you for coming in the summer. We would 
certainly welcome the opportunity to return the favor and 
attend a hearing in your State of Florida in January perhaps. I 
do appreciate the leadership you have taken on in this issue. I 
would also say to my colleague from Iowa, Tom Latham, who is as 
close to a delegation that I have since I am the only member 
from South Dakota, we work very closely on a number of issues, 
whether it's agriculture or water development or transportation 
funding or anything like that in this part of the country, we 
really do have to work as a team, so I appreciate very much the 
leadership that Tom provides to many of those issues and the 
impact that they have on my State of South Dakota.
    I would just simply add to what has already been said and 
say that this is a personal issue for me. I have two young 
daughters, one of whom is in junior high and another who will 
be in junior high in a year, and nothing is more important to 
me as a parent than eliminating the scourge of illegal drugs 
that is destroying minds and ambitions of our young people.
    We just don't have any alternative. We have to snuff this 
thing out. I think that my experience is in a lot of issues 
like this that our faith-based institutions, our families, our 
community-based organizations are much more successful in 
helping solve and address these issues. Obviously there is a 
national responsibility here in the area I think of 
interdiction and cutting off the supply at the source, but when 
it comes to prevention, when it comes to education, when it 
comes to treatment, there are a lot of good things that are 
going on out there, and we want to make sure that we are good 
partners with local law enforcement, with those who are 
involved in efforts to combat, fight illegal drugs, and we want 
to work closely with you to make sure the resources are there, 
the tools are in place and we can successfully put together 
strategies that will help us really attack this problem.
    It is a great concern. I never would have thought, I grew 
up in the western part of South Dakota in a real small town, 
that we would be talking about this in the terms that we are 
today in a State like ours, and States like Iowa and Nebraska. 
But we are a high intensity drug trafficking area. That's a 
label, designation that is a concern, but it's also I think 
welcome in the sense that it helps us attack this problem and 
work collectively in putting together regional strategies that 
will help us address it.
    I am here today to listen and to learn and to find out 
exactly what the dimensions of some of the issues and the 
problems are, and then to hear from people who care very deeply 
about this, about what we might do to better combat it.
    So thank you for the opportunity to be here, Mr. Chairman. 
Thank you for being here. And, Tom, thank you for hosting us in 
Sioux City, and I want to work collectively.
    I was noting in the testimony here too the number of deaths 
that are directly attributed to drugs, and those that are 
indirectly, and I would say that one is too many. We need to do 
everything we can to get to where we have this issue in hand to 
where we're not losing any of our young people to this problem.
    Thank you for the chance to be here. I look forward to the 
testimony and I hope we have an opportunity to ask questions 
later. Thanks.
    Mr. Mica. Thank you, Mr. Thune. I didn't get to see Mr. 
Thune earlier, but Tom and I did have coffee this morning 
together. I told him I feel a little bit like coming home. 
Actually my uncle who was the first Mica to go to college came 
to Iowa and received his degree here. My first job on 
graduating from college was in Iowa City where I worked for a 
little over a year, and actually my last business venture was 
in Aberdeen, SD. I started the cellular RSA service in 
Aberdeen, so I felt a little bit of a kinship to this area and 
pleased to be back, and to also conduct this most important 
field hearing.
    We'll now proceed, and Mr. Latham moves that we keep the 
record open for a period of 2 weeks, and without objection that 
is so ordered.
    I might just say for those visiting, we do have a limited 
number of witnesses who are testifying because it's impossible 
to hear from everyone in these official proceedings. However, 
the action which I just took and we passed by unanimous consent 
would allow anyone who would like to submit comments or 
statements for the record to submit them either to me as Chair 
of the subcommittee, or to Mr. Latham or Mr. Thune for 
inclusion and part of the official proceedings of today's 
hearing, and that will be open for a period of 2 weeks.
    Now as we proceed, I would like to go to our witness panel, 
and we do have three panels today.
    The first panel consists of Mr. Joe Frisbie, and he is the 
chief of the Sioux City Police Department. The second panelist 
is Marti J. Reilly, and Marti Reilly is with the Tri-State Drug 
Task Force. And then the third witness is Penny Westfall, and 
she is the commissioner of Public Safety for the State of Iowa.
    Again let me explain, since I don't think you've testified 
before our subcommittee before, this is an investigations and 
oversight subcommittee of the House of Representatives. In that 
regard we do swear in our witnesses. Additionally, in our 
proceedings we would ask that if you have a lengthy statement 
or statement beyond 5 minutes that you request and through the 
chair I will move by unanimous consent that we make an entire 
statement part of the record, a lengthy statement. We'll also 
include data information or background material upon similar 
requests to the Chair.
    With those opening comments, if I could, would you please 
stand to be sworn. Would you raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses, the record will reflect, answered 
in the affirmative.
    I'm pleased to welcome you before our subcommittee. Again 
pleased to be here with you this morning. I'll recognize first 
for his statement the chief of the Sioux City Police 
Department, Mr. Joe Frisbie. You're recognized, sir.

STATEMENTS OF JOE FRISBIE, CHIEF, SIOUX CITY POLICE DEPARTMENT; 
MARTI J. REILLY, TRI-STATE DRUG TASK FORCE; AND PENNY WESTFALL, 
          COMMISSIONER OF PUBLIC SAFETY, STATE OF IOWA

    Mr. Frisbie. Mr. Chairman, Congressman Latham, Congressman 
Thune, thank you for being here today.
    There's no question that the methamphetamine problem in the 
Midwest, specifically in Sioux City, has reached an epidemic 
proportion. We have a long history of addressing the drug 
problem as a local problem. Communities in our tri-State area 
have suffered jurisdictional problems in developing cases. 
We've suffered a shortage of resources that prevent us from 
addressing the problem beyond the street level.
    In the past several problems have prevented us from 
conducting investigations in an organized manner, such as a 
lack of training funds, especially for smaller communities, a 
lack of collaboration between agencies, the absence of a highly 
organized sharing of information of intelligence systems, the 
lack of an organized task force to conduct collaborative 
investigations and a lack of Federal support beyond peripheral 
involvement. We have made some progress. While effort was made 
to address the problem in major metropolitan cities and ports 
of entry, the Midwest remained an open and lucrative market 
that offered little risk.
    However, there have been some promising developments that 
have been made over the last 8 to 10 years that have helped us 
become more organized in our approach to dealing with the drug 
problem in our area. In 1992, the Federal Government brought in 
two DEA agents to Sioux City. In 1995, they formed a 
provisional task force with the DEA with the help of 
Congressman Latham. In 1997, again with the help of Congressman 
Latham, we were able to establish a resident office for the DEA 
here in Sioux City. In 1997, it had become apparent that a 
significant number of individuals driving the drug culture in 
our area were illegal aliens. Congressman Latham again helped 
us secure an INS agent for our task force. In 1998 Congressman 
Latham helped secure funds to build a facility in the Federal 
building to house the task force. In 1999 again Congressman 
Latham helped us turn the task force into a fully funded task 
force.
    The task force today is made up of 18 sworn officers, 2 
analysts, 3 of these are DEA agents, 6 are Sioux City police 
officers, and the remainder represent the States of South 
Dakota, Nebraska, Iowa DNE, the South Sioux City Police 
Department, the Woodbury County Sheriff's Office. Becoming a 
DEA-sponsored task force allowed us to deputize all officers in 
the task force giving them the jurisdiction to follow the cases 
anywhere in the country. All this was made possible by 
congressional help that we've received from such grants as the 
Byrne and the HIDTA funding. Thanks to this support we are able 
to address cases with as broad a scope as Sioux Falls, SD, Fort 
Dodge, Norfolk and Omaha, NE, Worthington, MN, and many other 
communities.
    Recently HIDTA conducted a survey to assess the perceived 
strengths and weaknesses in law enforcement agencies today. 
Perceived strengths included a more cooperative approach to law 
enforcement with better communication, sharing of equipment and 
facilities, multi-jurisdictional task force which removed 
boundaries among jurisdictions, fueled a law enforcement 
cooperative effort and leading to the dissemination to not only 
drugs but property and violent crimes as well. And better 
prosecution has been secured by the U.S. Federal attorney's 
office who has increased the number of prosecutors dealing with 
the drug problems in our communities, specifically through 
HIDTA grants which help us tremendously.
    Perceived weaknesses revealed in the responses included 
insufficient funding for equipment, investigations and 
training, and insufficient manpower, especially in smaller 
agencies to spare officers to attend training. Congressman 
Latham approached me several years ago about the idea of 
establishing a training center in Sioux City that would address 
these problems. The goal of the training center is to provide 
training to agencies previously not able to train effectively, 
either due to a shortage of funding or manpower, especially 
smaller agencies. Over the past 3 years we have provided 
training to over 5,309 students within a 150 mile radius of 
Sioux City. Training is offered in such courses as clandestine 
laboratories, drug awareness recognition, the Reid technique on 
interrogation for narcotics and many others.
    Training through the center is offered free of charge to 
officers of law enforcement agencies of Iowa, Nebraska, South 
Dakota and a part of Minnesota. The response has been 
overwhelming, but we need to work harder to reach the small 
agencies that can't afford the loss of manpower to send 
officers even if the training is free. The training center and 
the seminars provide available opportunity for officers to 
share information and make contacts that can later help them 
develop cases in the future, and it's imperative that we 
receive congressional support in this endeavor, we plan to 
develop a multi-jurisdictional geographic information system 
[GIS], to coordinate drug intelligence information for agencies 
through the tri-State area.
    In closing, you can see that where we came from and where 
we are today are light years apart, and yet we have to travel 
much further to eliminate the methamphetamine problem in our 
country. I ask for your continued support for the programs such 
as the Byrne and HIDTA grants, the multi-jurisdictional task 
force that have provided proven methods for improving our 
approach. We thank you for the support and urge its 
continuation.
    However, the drug problem does not exist in isolation. 
Other problems considered include the illegal alien problem 
that drives the drug trafficking problem and the need for 
demand reduction programs.
    Also, we have become victims of our own success. By further 
contributing to the jails that are already filled beyond their 
capacity, and it's a terrible problem all across the country.
    We urge Congress to keep all these issues in mind as they 
initiate and guide policy that guides both our local and our 
national fight against the problem of methamphetamine.
    Again I'd like to personally thank Congressman Latham for 
his overwhelming support in this committee and Congress as a 
whole for their efforts. Thank you very much.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Frisbie follows:]

    [GRAPHIC] [TIFF OMITTED] T2448.003
    
    [GRAPHIC] [TIFF OMITTED] T2448.004
    
    [GRAPHIC] [TIFF OMITTED] T2448.005
    
    [GRAPHIC] [TIFF OMITTED] T2448.006
    
    [GRAPHIC] [TIFF OMITTED] T2448.007
    
    Mr. Mica. We'll withhold questioning until we have heard 
from all the witnesses.
    I'll recognize now Marti J. Reilly who is with the Tri-
State Drug Task Force. You're recognized.
    Mr. Reilly. Good morning, gentlemen. My name is Marti 
Reilly. I'm a sergeant with the Sioux City, IA, Police 
Department. I have been a police officer for 19 years. My 
current assignment is the Tri-State Drug Task Force where I am 
the group supervisor.
    The Tri-State Task Force is a multi-jurisdictional drug 
investigation group located in Sioux City. The task force was 
formed in 1995 to combat the ever-growing drug problem in 
Nebraska, Iowa, South Dakota area which we refer to as the tri-
States. By 1995, it was obvious to those of us who worked drug 
investigations that we had a larger problem, primarily with 
methamphetamine, than we as individual agencies could handle 
alone. With Federal assistance through the Drug Enforcement 
Administration, local and State law enforcement agents could 
work together as deputized task force officers. This did allow 
us to operate without jurisdictional boundaries around us. That 
didn't stop the drug dealers, and instead it was stopping us.
    Our group today has 18 agents and officers working together 
in a centralized office. The group receives funding from DEA, 
through HIDTA, and through the Gothic grants.
    I worked drug investigations in Sioux City for 7 years over 
three different periods of time. I started working drug 
investigations in 1988. The drugs we were seeing available on 
the street at that time were powder cocaine and marijuana. I 
stopped working drugs in 1990 and then returned to working drug 
investigations in the fall of 1993.
    In that 3-year period while I was gone the new drug that 
hit the streets of Sioux City was methamphetamine and it hit in 
a big way. The first seizure of methamphetamine that we had in 
the Sioux City area was 92 percent pure, and we discovered a 
pound at that time. That was controlled by a Mexican male 
subject who was not interested in cooperating with law 
enforcement on where his drugs came from.
    This marked the beginning of a disturbing trend that 
continues to this day. While the Hispanic population has grown 
in our community, Mexican drug dealers have been able to blend 
into neighborhoods and communities. While attempting not to 
paint a picture with a wide brush, we have found that drug 
dealers at the top of the distribution network in our area 
predominantly are resident aliens or illegal aliens from 
Mexico.
    New terms have sprung up in the drug community, terms like 
Mexican Meth and Mexican Mafia. The term Mexican Meth is due to 
the fact that in our investigations the higher up the source 
scale you seem to go, Mexicans seem to control the drugs. The 
term Mexican Mafia seems to identify the methods used by these 
drug dealers in the way that they conduct business.
    We have very good Hispanic families in our community. 
Dealers, like I said earlier, try hard to blend in. We have a 
disproportionate number of Hispanics involved in drug 
trafficking in this area. Meth laboratories or lab 
manufacturing has somewhat increased in our area. It's not as 
overwhelming as it is in the rest of the State, but our 
particular area has increased mostly due to the quality of the 
methamphetamine going down significantly and the prices 
remaining the same. Therefore, they're getting into 
manufacturing on small scales.
    In the tri-State area we have approximately 120,000 people. 
We received intelligence information reports of much larger 
amounts than we could possibly support in this area. We in the 
area are referred to as the hub city, a title that we are 
working hard to change. One of the things that go hand in hand 
with large amounts of drugs are large amounts of money. The 
task force is working hard to interdict and intercept as many 
and as much methamphetamine as we possibly can.
    An area that we could use help in is with financial 
investigations. Many drug investigations have a member of the 
Internal Revenue Service working with them who specialize in 
investigations. We do not have an IRS agent in our group. I 
believe the seizing process away from drug organizations hurts 
the drug organization more than seizing drugs.
    Last, I request that this group seriously look into the 
problem of illegal immigration in this country. The problem 
facing us now is that we have to take the good with the bad. 
The bad control drug trafficking in our area. We deal with 
subjects who get arrested and flee back to Mexico. These 
subjects have several identities and are gone out of the area 
before their true identities are known. We also see many 
transient transporters who show up with multiple pounds of 
methamphetamine who know little of the organization or who are 
willing to tell us anything about their organizations or 
cooperating. We have found that only through cooperative 
approaches to investigating and information sharing from law 
enforcement has an impact on the problems that have been faced 
in the Midwest. Thank you.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Reilly follows:]

    [GRAPHIC] [TIFF OMITTED] T2448.008
    
    [GRAPHIC] [TIFF OMITTED] T2448.009
    
    [GRAPHIC] [TIFF OMITTED] T2448.010
    
    [GRAPHIC] [TIFF OMITTED] T2448.011
    
    [GRAPHIC] [TIFF OMITTED] T2448.012
    
    Mr. Mica. As I said, we'll withhold questions till we've 
heard from all of the panel.
    On the panel the last witness is Penny Westfall and she is 
the Commissioner of Public Safety for the State of Iowa. You're 
recognized.
    Ms. Westfall. Thank you, Mr. Chairman. We did bring along 
additional graphs and information that we would ask----
    Mr. Mica. Without objection those graphs and that 
information will be made part of the official record. Please 
proceed.
    Ms. Westfall. Over the last 5 years Iowa has been subject 
to dramatic increases in the number of meth labs that we have 
seized. Due to that the Department of Public Safety created a 
specialized team which is made up of members from different 
divisions within the department, the Division of Narcotics 
Enforcement, the Iowa State Patrol, the State Fire Marshal's 
Office and chemists from the Division of Criminal Investigation 
criminal laboratories. This team provides assistance to 
Federal, county and State law enforcement through the State of 
Iowa.
    As you know, the labs have increased tremendously from a 
small number to over 500 seized by the State last year. In 
addition to that there were 300 seized by the city and county 
law enforcement agencies, so we were over 800 labs seized.
    Two manufacturing methods are used in Iowa, the Nazi method 
and the red phosphorus. The primary one is the Nazi method. We 
have seen a change in clan lab operations. Labs are getting 
larger, capable of producing larger quantities of 
methamphetamine. The pooling of efforts and precursors by the 
smaller lab operators is occurring. The agents of the Division 
of Narcotics Enforcement are working major methamphetamine lab 
conspiracy cases involving multiple lab operators. Our 
intelligence gained through cooperating individuals indicates 
several out-of-state organizations view Iowa as a fertile 
ground to set up large-scale operations.
    The locations of Iowa's lab sites tend to be seasonal in 
nature. As the weather warms, the clan lab operations move to 
the rural open areas, and as winter approaches they become more 
urbanized by migrating back indoors. We have found labs in 
major metropolitan areas and in most rural areas. They have 
been found in various locations, and we have several small farm 
communities along the Iowa-Missouri borders that have 
experienced a large number of labs.
    The Department of Public Safety has sponsored four 40-hour 
OSHA certified lab certification schools during 1999 to assist 
local law enforcement agencies in combating the meth problem. 
Sixty-nine sworn city officers and 11 firefighters attended and 
were subsequently certified. We've also done several, four 1-
day re-certification courses. The Division of Narcotics 
Enforcement, supported by the State Fire Marshal's Office, 
presented 90 classes on methamphetamine clandestine lab 
recognition to over 6,500 people. These classes were comprised 
of sworn officers and full and voluntary firefighters.
    The Iowa State Patrol established a full-time 11-person 
highway interdiction team in July 1999 to deter the importation 
of meth. Approximately 85 percent of our meth is believed to be 
imported from outside States. The Iowa State Patrol has 48 
troopers who are clan lab certified. These troopers reside 
throughout the State and can respond to assist as needed.
    Last year the Division of Narcotics Enforcement requested 
and received additional sworn officers, permitting the 
assignment of 11 agents to full-time meth lab enforcement 
efforts. The State Fire Marshal's Office has seven lab 
certified officers which respond to clan lab sites to assist in 
the identification and removal of explosive substances and 
devices when found. The State Fire Marshal's Office is 
responding to more fires that are the result of accidents 
occurring during the manufacturing of meth.
    The Division of Criminal Investigation's crime laboratory 
is also severely impacted by the number of active labs and 
seizures. Prompt analysis of the evidence is critical to any 
prosecution. Many of the lab sites seized require the presence 
of a chemist. This in turn slows down the evidence analysis. 
The DCI has six certified clan lab chemists. Last year they 
earned over $21,000 in standby time and over $52,000 in actual 
overtime at lab sites. This total is just under what is 
expended for the remaining 40-member crime laboratory staff. 
The current crime laboratory is severely limited in space. New 
facilities are needed as soon as possible to meet the demand 
for prompt testing. The passage of the National Forensic 
Science Improvement Act is imperative.
    These labs are extremely resource-demanding. Officers are 
diverted from their regular assignments, requiring overtime 
pay, the specialized equipment and physicals continue to rise. 
The clan lab related overtime costs to the department exceed 
thousands of dollars each quarter, including the 
recertifications.
    The specialized equipment required to safely enter lab 
sites is cost-prohibitive to most agencies. Even a small lab 
may cost $1,200 in expendable items. The actual cost of 
physicals is also quite costly. They are truly a safety 
concern. Lab sites are not only places where illegal substances 
are produced, but innocent people are subjected to possible 
explosion, fire and carcinogenic wastes. These labs are 
manpower and resource draining, costing thousands of dollars to 
clean up.
    It is imperative that the DEA be funded for their lab site 
cleanups and they help refund the States that had to cover the 
costs when they ran out of money.
    In closing, the labs create a true public safety hazard 
that demands law enforcement response. We appreciate your being 
here to address that.
    Mr. Mica. Thank you so much.
    [The prepared statement of Ms. Westfall follows:]

    [GRAPHIC] [TIFF OMITTED] T2448.013
    
    [GRAPHIC] [TIFF OMITTED] T2448.014
    
    [GRAPHIC] [TIFF OMITTED] T2448.015
    
    [GRAPHIC] [TIFF OMITTED] T2448.016
    
    [GRAPHIC] [TIFF OMITTED] T2448.017
    
    [GRAPHIC] [TIFF OMITTED] T2448.018
    
    [GRAPHIC] [TIFF OMITTED] T2448.019
    
    [GRAPHIC] [TIFF OMITTED] T2448.020
    
    [GRAPHIC] [TIFF OMITTED] T2448.021
    
    [GRAPHIC] [TIFF OMITTED] T2448.022
    
    [GRAPHIC] [TIFF OMITTED] T2448.023
    
    Mr. Mica. I appreciate all of the witnesses on the panel 
providing us with testimony this morning.
    Let me start with a few questions if I may.
    You've cited a couple of areas that are national 
responsibility, and that we need attention on this problem. One 
is the problem I guess of illegals coming into this area. What 
percentage of illegals of those who are involved in this meth 
production activity or criminal activity are illegals, is it a 
small percentage?
    Mr. Frisbie. I talked to Sergeant Reilly about this 
recently, and the figure we come up with is around 50 to 60 
percent.
    Mr. Mica. Fifty to 60 percent.
    Mr. Frisbie. Of the people that have been arrested in our 
community for the drug problems, methamphetamine, have been 
Hispanic, Hispanic individuals. They're highly over-
represented.
    Mr. Mica. I'm talking, they're illegals, they're not people 
who are here legitimately?
    Mr. Frisbie. That's right.
    Mr. Mica. What about cooperation from INS, a Federal 
agency, in removing these individuals? I mean, if we have that 
many people who are here illegally to begin with, not to 
mention their criminal activity, it is a Federal responsibility 
to remove them. Are you getting proper attention from INS, or 
is there proper resources to deal with the illegal alien 
problem here?
    Mr. Frisbie. From the investigation standpoint, we have an 
INS agent in the task force, but, however, the removal I think 
is by justice, there has been a problem. And of course the 
housing, where to put these people, the length of time it takes 
to----
    Mr. Mica. Process and move them out.
    Are you also getting repeats now, are they coming back some 
of them? You talked about some use of aliases.
    Mr. Reilly. We have illegal re-entry problems. The thing is 
that many times we have problems identifying them in the first 
place. We do have an INS agent within our task force. The thing 
is that they have to be convicted of a felony before 
deportation hearings generally take place. So jail space is 
becoming more and more burdensome toward beds available. I 
think the standard is going to continue to raise on what it 
takes to actually deportate.
    Mr. Mica. That seems strange, because we get cases in 
Florida all the time where people who are here innocent and 
come in, they may have overstayed their stay, but they move 
them out in a hurry.
    Mr. Reilly. You're a lot closer than we are.
    Mr. Mica. So that's one of your problems, geographic.
    You said you don't have an IRS agent as part of your effort 
here, and you said you can also go after these folks through 
either a tax evasion or some financial improper activity. Was 
that a recommendation?
    Mr. Reilly. Yes, it was. IRS has a division called CID, 
Criminal Investigation Division, that they're law enforcement 
agents, not just accountants, who specifically work on money 
laundering, and that's the type of agent we would like to see 
assigned to our task force to assist us in the financial 
investigations of some of these organizations.
    Mr. Mica. I'd like to come away from these hearings with 
something positive. Maybe we can do a joint letter from us to 
local members, and may get some others to IRS. When I was 
chairman of Civil Service, I had over 110,000 employees and 
thousands of criminal investigators. Maybe we can get one for 
this area. And if the staff will remind me, we'll initiate that 
good recommendation.
    We know, and I've heard testimony among all three of you 
that we have Mexican illegals or Mexican traffickers involved 
which is kind of mind-boggling considering again the Heartland 
of America here. How far back are we able to trace these? I 
know that you probably have a certain number of people who 
immigrated here and worked here and conduct themselves very 
well. But you have got this illegal or criminal activity, and 
it must stem back to Mexico at least as far as supplies or 
finance. Is there a good connect here? Is this something that 
the DEA and FBI are following up on? And do we have the 
cooperation of Mexican officials in going after the bad guys? 
Chief.
    Mr. Frisbie. I wish I could answer that.
    Mr. Mica. You're not seeing that?
    Mr. Frisbie. No.
    Mr. Mica. Ms. Westfall.
    Ms. Westfall. We work closely with the DEA and the FBI in 
trying to develop the conspiracies and working with the Federal 
drug task force. I can't speak directly as far as the 
cooperation from the Mexican Government, but we certainly are 
receiving the cooperation from our Federal agencies in 
reaching, trying to reach the conspiracies. It's difficult.
    Mr. Mica. Are there specific cases that you have been able 
to go after and they're tracing them back to Mexican dealers, 
and are we seeing success, or was there some lack of resource 
or attention from the DEA or FBI to this area and your specific 
problems? Be candid. If you don't want to tell me publicly, 
I'll be glad, I don't want to embarrass anyone, and I know you 
work with these officials. But our purpose in being here is to 
get the resources here and to make certain that the Federal 
agencies are cooperating with the locals, and sometimes that 
doesn't always happen.
    Mr. Reilly. Let me go ahead and explain a case to you to 
kind of give you some idea what we see. We had an organization 
that involved several family members that ran a business, an 
auto parts business. In that business there were two, there was 
one in Iowa, actually it was in Nebraska, and one in 
California. We continually received information that this group 
was responsible for large quantity shipments, 30 to 60 pounds 
methamphetamine coming into this area every 2 to 3 weeks. We 
intercepted through a courier that came out here without drugs 
with her, but she had a pickup ticket at a local common 
carrier. We went out and with her cooperation we seized that 
auto part and x-rayed it. That auto part contained seven pounds 
of methamphetamine, completely wrapped in fiberglass, painted 
up to look like a spoiler on a car. When we started working 
that conspiracy from that particular seizure, that business 
disappeared. We sent agents immediately out to California 
because we figured that that was where they were going, is to 
the other auto parts store. They disappeared from there also 
and were back in Mexico within days.
    Mr. Mica. So the operation was linked to Mexican 
traffickers, and this operation was just a front. Did the part 
come in from California or from Mexico?
    Mr. Reilly. From California. Most of what we see is it 
seems like the Hispanic groups that control the drug 
trafficking have their last setup in California. I believe the 
chemicals come into California, they're manufactured in 
California, they're shipped through the Southwest.
    Mr. Mica. Being shipped through legitimate carriers, too?
    Mr. Reilly. Not ordinarily. I would say a vast majority of 
what is shipped is in compartmentalized vehicles. The 
interdiction teams are seeing more and more hidden compartments 
in semi-truck trailers, in regular vehicles. They're using 
families to look like mom and pop and the kids in an RV that 
may contain 30 to 60 pounds of drugs hidden in the vehicle. I 
think our roadways are inundated.
    Mr. Mica. You also testified that 80 percent of this stuff 
is coming in already produced and you have got the labs on top 
of it producing it here. You have described the transport and 
entry of the product and some of the routing. What about 
precursor chemicals that are being used in the local 
production, what are we finding here?
    Mr. Reilly. That we have seen in our area, and I'll let 
Penny address the statewide, are mostly the meth labs where you 
could get the precursor chemicals at a local hardware store, 
more like a Wal-Mart type store.
    Mr. Mica. So the precursors are not necessarily coming in 
from Mexico?
    Mr. Reilly. No. In fact, what we see the most of are 
smaller labs that manufacture an ounce or less, and most of 
those precursor chemicals are purchased at local department 
stores.
    Mr. Mica. Finally let me ask you about the HIDTA. We've put 
a lot of money in the HIDTAs. It's sort of a food fight, 
everybody going after the money. So many areas have such a 
tremendous problem right now. We have limited resources, and 
we're cutting the pie slices a little bit thinner. How is your 
money spent here, and do you feel it's effective?
    What I'd like to know is that some places build their own 
little HIDTA bureaucracy. Some of them put money into different 
agencies. Some of them have cooperative efforts. Perhaps you 
could describe how your money is being spent and do you feel 
that that's the most effective way? Then if we had a few more 
dollars where would you target, Chief Frisbee?
    Mr. Frisbie. We have six members of our task force right 
now that are supported by HIDTA grants. Those, all six of those 
people are investigators. Most of the money we have in our task 
force at least is supporting investigative efforts. In fact 
it's almost all of it really.
    Mr. Mica. How do you physically operate? Do you have a 
building? Some of these HIDTAs are buying buildings.
    Mr. Frisbie. That's an interesting question.
    When we first got in the business, we actually built our 
own out of an old warehouse, and Congressman Latham came down 
and took a look at it 1 day and said we probably should have 
something a little better than that. We actually built a center 
over in the basement of the Federal Building.
    Mr. Mica. Using an existing Federal resource and converting 
it. What about administrative staff?
    Mr. Frisbie. One secretary. It's a fairly nice arrangement.
    Mr. Mica. But the bulk of your money is going into 
personnel that are actively involved in investigating?
    Mr. Frisbie. Yes.
    Ms. Westfall. Mr. Chairman, if I may, for the State, I 
think speaking across the State, the HIDTA funds are essential 
for continuing the enforcement efforts across the State. I know 
with the Department of Public Safety, ours goes to personnel, 
to overtime, to equipment. We just recently received, asked the 
State, what are you needing for interdiction, and we added 
equipment and items that they're needing also. So it's multi, 
it covers several of the divisions within the Department of 
Public Safety.
    Mr. Mica. Your HIDTA money is really for multi-state 
efforts, too?
    Ms. Westfall. Yes.
    Mr. Mica. What ends up--like in Iowa, is there some kind of 
equitable distribution between Iowa, South Dakota and Nebraska? 
Is Missouri in this area?
    Ms. Westfall. Yes.
    Mr. Mica. Tell me how that's divided and is that a fair way 
to do it?
    Mr. Frisbie. Mr. Chairman, if I may, if we could recognize 
Tim Carter who is with us today from DNE, he was the chairman 
of the board of the Midwest HIDTA, who could really address 
these questions quite well, if that would be permissible.
    Mr. Mica. I'll tell you what we'll do. We can add him to 
the next panel. He's not on it. Or the last panel.
    Ms. Westfall. We believe that it is being equitably shared, 
although some of the States have not been as active as Iowa and 
Missouri has. So as other States become more active, then their 
requests are increasing for additional moneys, which means they 
will be taking it from the States that have been using it in 
the past. There are, I also understand, additional HIDTAs being 
formed that will also----
    Mr. Mica. My final question was again, we'll put more money 
in this time. Fortunately, we're in a surplus position, and 
more money will end up in HIDTAs overall. But then you get down 
to the specific activity that should be supported. If you had 
to list your top choices, one or two, where we might put more 
funds, maybe you could, Chief Frisbie and Ms. Westfall, maybe 
you could tell us what you would do with that, the biggest 
need.
    Mr. Frisbie. Obviously always there's a need for more 
manpower for investigations.
    Mr. Mica. So that would be the most effective use of our 
dollars if we add them would be for additional investigative 
staff.
    Mr. Frisbie. Yes. Followed by prosecution.
    And again I'll tell you, one of the biggest problems that I 
see, I keep hearing about it on a national level, we have over 
1 million people a year coming into this country illegally, 
which I think is fueling the entire problem. It's absolutely a 
huge problem. I don't know that this exactly ties to HIDTA in 
any way. Something has to be done about the influx of people 
into this country illegally. I think everybody understands 
that.
    The other problem is what bogs us down, some of the other 
problems we're having is the administration of handling these 
people once we do come up with them. When I said the jails are 
a problem here, it's not an exaggeration. Our jails are 
overflowing here to the point there's just no place to put 
anybody anymore.
    Mr. Mica. How many of those are illegal?
    Mr. Frisbie. There's no solution to it. I'd have to ask the 
sheriff for a breakdown, but there's a lot. The fact of the 
matter is there's no relief anywhere for this. We've been all 
over. We've been to the State. We've been out to DC, here 
recently, talked about the problem, and quite honestly there 
isn't anybody anywhere. We're very exasperated by this problem. 
We just don't know what to do with it.
    Mr. Mica. We also conduct oversight and investigations, 
have that responsibility over INS. Similar problem we've been 
hearing. We did a hearing north of Atlanta, GA. I think there 
were 20,000 illegals in this small county north of Atlanta. I 
couldn't believe those figures, but the same thing we're 
hearing. That may be something else we could weigh in and 
address. Did you want to comment in closing?
    Ms. Westfall. We would use the additional moneys for 
personnel costs and equipment. The expendable equipment, the 
equipment that's routinely needed and is extremely costly, the 
physicals that are required to keep a certified lab person 
certified, all of that is very expensive. Those would be some 
of the personnel costs that we would be utilizing.
    Would also note that in your earlier questioning with the 
INS, they have been very responsive to us. It's not unusual for 
the State patrol to stop vehicles and find maybe 15 people in a 
van, maybe 30 persons in a rental truck, the kind you don't 
know how people have survived in such tight, tight quarters. 
They try to be very successful. There was publicity in the last 
couple of weeks of a stop north of Des Moines in the Story 
County area where there were not enough INS personnel to 
respond, so two people, without really knowing who they were, 
had to be released because they couldn't come and take them. 
But they are really attempting to respond as much as their 
personnel can be allowed to.
    Mr. Mica. Thank you. I'll yield now to Mr. Latham.
    Mr. Latham. Thank you very much, Mr. Chairman.
    I want to thank this panel very much for testimony. First 
of all, I want to say as far as bringing another IRS agent in 
here, I'll reserve judgment on that.
    Mr. Mica. Maybe he can work on this.
    Mr. Latham. To work specifically here, yes. I wish we had 
time for all the entities to be on the panel here. I will tell 
you the local law enforcement throughout the district, the 
sheriff offices, Sheriff Amick back here does a great job. I 
see the State patrol here, and the tremendous work that they 
have had, the tremendous job they do. The State DCI, the INS. I 
was going to say as far as INS, and we can get off into days of 
discussion, at the local level they do everything they can and 
I think do it very, very well. The people we have on the ground 
here are outstanding, working with the Tri-State Drug Task 
Force. We have a quick response team here in Sioux City. And we 
have more than quadrupled the budget for INS. I am on one of 
the subcommittees that funds it. It's not a matter of money.
    Mr. Mica. It's the resources.
    Mr. Latham. Well, it's a dysfunctional agency. It's 
probably the most dysfunctional. As an organization, it's 
systemic in the INS. The Federal DEA does an outstanding job 
here in cooperation.
    I do want to make one point about what we're seeing. We 
don't always identify people who are here illegally with 
intentions to sell the drugs and to destroy what we have in our 
community. Let's not in any way stereotype a group of people 
who I think are outstanding citizens and contribute greatly to 
this community. And it's unfortunate that there is this element 
who hides out in a tremendous part of our community. I'm always 
nervous when we kind of sometimes lump people together, because 
that simply is not the case. It's a tiny part of a community 
that are using them as cover basically for their illicit 
actions.
    As you know, Mr. Chairman, back several years ago, and I've 
seen maps were the upper Midwest actually was targeted and a 
marketing plan put into place by the Mexican drug cartels for 
this, this is the only part of the country that wasn't already 
taken over by certain organized crime, so this is no accident 
of what's happening here. There is a marketing plan in place to 
kill our kids basically.
    That's a statement again rather than ask questions here.
    I would like to ask Penny, we talked a lot about law 
enforcement, the challenges they face, what have you seen, 
local fire departments, we have all these labs out here. We had 
a situation over in Cherokee a couple months ago, 6 weeks ago, 
with a house fire and basically they went in and found out 
there was something strange. They were basically told to back 
off. Found out later there were booby traps and things in 
place. What do we do to assist in that way? And they're toxic 
waste sites basically.
    Ms. Westfall. We have 16 hazardous materials teams first, 
to respond to your question, that are made up of fire personnel 
across the State. They have a real interest in being able to 
come in and assist law enforcement in the clan lab sites that 
are not criminal sites. There are many that we find that there 
is just not much evidence there, and they're really not 
probably going to ever find somebody to charge with it. So we 
have been working with particularly the hazmat teams at this 
point to see about certifying them so that if it's not a crime 
scene, law enforcement arrives first, they find it's not a 
crime scene, allow them to remove themselves and go on with 
other investigations, and have the people from the hazmat team 
come in and clean up.
    There's been a couple problems. One is a 40-hour DEA 
certification required for site certification. The hazmat 
material persons have an extensive amount of training on 
hazardous materials. So we have been able to work with them to 
get it to a 24-hour course, as I understand, 24-hour course for 
the hazmat people that will be taught here at the training 
facility, so that they will be certified, but without the cost 
of going through that 40 hours.
    But we also have a problem with who can clean up. Right now 
there's only one or maybe a couple certified companies or 
companies that the DEA will pay for that they will come in and 
clean up. We are wondering if it wouldn't be possible, if it's 
not possible on at least some of the smaller sites, that the 
hazardous materials teams be allowed to clean them up and get 
paid for them at a lesser cost. At this point we're being told 
that can't happen, that it has to be the full group that comes 
in, and if somebody takes the risk of having someone else clean 
up hazardous materials, they will not receive the Federal 
funding for that cleanup. That's certainly a tremendous risk.
    In addition to that there were several fire fighters 
trained as we went around looking at the hazardous, at the lab 
recognition. We'd like to do additional training on that. We 
don't have any plans at this time. We do have concern for 
firefighters' safety. We have had deaths now from fire scenes, 
where there has been an explosion or a fire. So we do have 
concerns for their safety.
    Mr. Latham. Joe, do you want to comment as far as your 
training? And I want to publicly thank you for the tremendous 
job that you have done at the training center out here. It's 
been remarkable, the success you have had.
    Mr. Frisbie. Thank you. Congressman, I'll tell you, I think 
one of the problems that we'd like to address at the training 
center in the future is we're still finding that it's extremely 
hard to get the small communities to attend, the mom and pop 
operations, the one, two, three, four-man departments. A lot of 
that is even with the training being free, they have to have 
somebody watch the community when they're gone, and in these 
small communities that's a very hard problem. We're going to be 
looking at going out and trying to do some recruitment with 
these folks and encourage the sheriff's departments in their 
areas and the local police departments to help each other out, 
to backfill.
    I talked to Sheriff Amick who has done that, where they 
backfill while officers from the small communities are in the 
training center. We're going to try to encourage some of that. 
In the absence of that we're going to have to figure out a way 
to pay for the backfill to get these officers in there. I think 
this is crucial.
    The larger communities have a lot more capability of 
handling problems, because they have the investigative 
resources, a lot more at least than the small communities 
throughout the area. In the course of drug dealers realizing 
there's a lot of activity that goes on out in the rural areas, 
in the smaller communities--that's why we're trying to train 
the smaller departments on drug recognition and to be able to 
identify a lab when they see one.
    And then we hold a seminar each year so that all of these 
small entities and all of these people that have been taking 
this drug training from us can get together with our task 
force, and our task force comes in and talks to them about how 
you actually set up a case, or what level you have to be at to 
start a Federal case with them, or how to get assistance from 
the drug task force, so that these small departments can go 
from a one or two-man department to overnight they can be a 20-
man department if those resources are necessary to go out there 
to aid and assist these folks and take care of this problem, 
because this problem is no longer a local problem. It's a 
regional problem. What's going on out here in the regional area 
is affecting us as well.
    So I think that's one area we have to put a lot more effort 
into. And I think this training is absolutely crucial. If the 
officers don't understand and cannot identify the drug problems 
in their community or what it takes to do these investigations, 
they're just basically out there doing their routine things and 
they just can't identify it and can't deal with it.
    The other thing that we'd like to see come out of the 
training center is that the GIS system which I was talking 
about, which is global information system, see if we can 
develop that, which is another way of handling intelligence 
information, where it's doing layering mapping, where you can 
identify different places of whether they sell precursors, 
where you have had known drug houses, and you start doing these 
relationship maps and a much better system of intelligence 
sharing. We think that that can make a tremendous difference. 
We're trying to develop that right now. Hopefully in the future 
we can get some support on that. We'll be talking to you about 
that in the future.
    Mr. Latham. Surprise.
    Mr. Frisbie. One thing I'd like to say is or encourage 
other locations or police officers or sheriffs or what have 
you, that one of the best things I think that has happened for 
us is being able to develop a relationship with the 
congressional office such as yours, to come in and take the 
time to talk to us, identify the problems. And I want you to 
know that we really appreciate it when you come to town. I 
never thought I'd see this in politics, but it actually happens 
that Congressman Latham will come to town, it's not a photo op, 
he actually comes in unannounced sometimes. We go in and look 
at the training centers; comes in and talks to the men on the 
task force to find out what's wrong.
    We don't always need congressional hearings to get these 
things done. I think more work gets done directly through the 
Congressman's offices on individual bases, because we're 
continually taking our problems to him. We're inundating him 
with our problems.
    Mr. Mica. He does the same thing to me.
    Mr. Frisbie. I think that's extremely important to have 
those lines of communications wide open. And we do hear, as you 
can see over the last 8 to 10 years the progress we've made, 
not even having a DEA office here. We worked out of a Sioux 
Falls office 8 years ago. Now we're a fully funded DEA task 
force here. That's tremendous progress. The only way you can do 
that is through constant collaboration between ourselves and 
Congress, not just in these kind of hearings here, but ongoing 
when these hearings are over. I think it's extremely important, 
because you're not going to hear it all here today.
    Mr. Latham. Check's in the mail, Joe. We're going to run up 
against time here. We knew this was going to happen.
    Mr. Chairman, I wanted to express, there is an initiative 
to help small local fire departments, have some resources. We 
do a lot with law enforcement. But it's something that I've 
been very supportive. I believe you have too. I think these 
people along with local law enforcement are on the front edge 
as far as danger, and the training that Joe can give them, and 
also some resources as far as equipment for self-protection out 
there on the local level, and these volunteer fire departments 
are really stressed today. We really need to help there. Thank 
you, Mr. Chairman.
    Mr. Mica. The gentleman from South Dakota is recognized. 
Mr. Thune.
    Mr. Thune. Thank you, Mr. Chairman.
    Chief Frisbie, I was noticing in looking at your resume, 
you have a degree from that extraordinarily fine institution up 
the road, University of South Dakota.
    Mr. Frisbie. I also teach there, Congressman.
    Mr. Thune. Your stock's going up all the time.
    Just a question. We had in South Dakota the biggest meth 
bust here in the last week, 8 pounds, some $200,000 street 
value, and it was actually initially detected by the Postal 
Service, because it came in a package that they thought looked 
suspicious, and that's what prompted the investigation.
    I'm wondering, you were using statistics here in part of 
your dialog earlier with the chairman, in talking about the 
amount of meth that is actually homegrown in labs and meth that 
is imported. I guess I'm wondering in your experience, your 
assessment of that, does a lot of this come from across the 
border, not just into Iowa or Nebraska or South Dakota, but is 
it coming from Mexico or outside the United States borders into 
this country, and percentagewise how much of a problem is that 
relative to that that is grown locally?
    Mr. Frisbie. Talking to Sergeant Reilly here in the past 
about this, the southwest part of the United States and Mexico 
is my understanding where a lot of our meth is coming from. But 
I think you would be better to address that.
    Mr. Reilly. It would primarily be coming from California. 
We still see large shipments of marijuana coming up that 
sometimes accompanies methamphetamine that I believe probably 
is grown in Mexico and brought up. But it seems as though 
primarily the methamphetamine is coming from the southwest 
United States.
    Ms. Westfall. Our intelligence shows that about 85 percent 
is coming in from outside the State. That was a couple years 
ago at 90 percent, so it's decreased a small amount it appears 
by intelligence. Primarily it's coming from Mexico into 
California, then across. Of the people who are cooking meth 
here in Iowa, they're primarily Caucasian, primarily upper 
20's, early 30's, you may get into the 40's.
    Mr. Thune. This is a question too, I guess, is how actually 
does this get into the hands of our kids, I mean what is it, 
the dealers, the distributors, once the supply comes in, how 
then is it making it out there to the kids?
    Mr. Reilly. In my report that I submitted I kind of looked 
at the history of what we saw locally was almost grocery store 
marketing. When we initially saw methamphetamine coming in, it 
was extremely pure and it was given out pretty much, hey, I 
just met you, I don't know the people around here, I don't 
speak the language very well, here, have a half pound, go 
distribute to your friends, bring me back the money. That type 
of grocery store marketing, almost like free sampling started 
it.
    That became a peripheral network. That dealer had several 
people then that he could deal down to, one person dealt to 
several people, and trickle down.
    You have to be at quite a high level to actually be dealing 
with one of the bigger people in this community. You work 
through several layers, and mostly those layers go through what 
we have as a local population, Caucasian males, Caucasian 
females, hand to hand to hand to hand several times before it 
gets down to a small level that's getting to your kids in the 
middle school. If you follow that up that seems to be where 
it's coming from.
    Mr. Frisbie. One of the problems that we're having with 
local law enforcement of course is we spend so much time and 
effort into the larger problem, trying to get to the sources. 
One place some of my investigators and other people tell me 
that is a bit of a problem is working the street level, because 
all our efforts and our manpower and resources are dedicated 
toward the larger cases, where the small cases, the street 
level stuff we need to pay a little more attention to in the 
future. And that usually will work its way into some of the 
larger cases.
    Mr. Thune. Sergeant Marti, I'm curious too as to the 
efforts of your task force, to what degree does South Dakota 
figure into those activities, I mean as far as what you're 
seeing activity in our State, and I have a followup question to 
that. But anyway if you could tell me.
    Mr. Reilly. Many years we have attended meetings with the 
agents who work the Sioux Falls area, and we've been beat up by 
them for quite a long time saying all their dope problems are 
in Sioux City, and if they built a snow fence across the 
interstate they would have no problems. Quite honestly we work 
together with agents from South Dakota. We have a South Dakota 
agent now in our task force.
    I don't think State lines have an effect on how a drug 
trafficker traffics his drugs. It only affects law enforcement 
really who has to deal with the jurisdictional boundary. I 
believe that right now a lot of the drug problems that they do 
have in Sioux Falls and throughout that little corridor between 
Sioux City and Sioux Falls are fed through us. We are kind of a 
hub city and I believe that a lot of the drugs are being 
filtered through Sioux City to Sioux Falls. So through that 
cooperative effort, and we deal with those agents coming down 
and working with our task force to identify people, they may be 
trained in their area but actually live as residents in our 
area. We have worked quite a few investigations together to 
combat the jurisdictional problem and the territorial problem 
between the two States.
    Mr. Thune. You talk about Sioux City-Sioux Falls corridor. 
I suspect probably over to Yankton and areas like that, are you 
seeing this going out into the rural areas, are you seeing much 
activity in the smaller towns? Like I'm thinking west of 
Yankton, you get to places like Tyndall, Tabor and up in 
Freeman, those areas surrounding Sioux Falls and Sioux City.
    Mr. Reilly. I believe because we are kind of a hub city, 
and if you have a network distribution that the drugs probably 
are filtering that direction, there are dealer sources out 
there in the small communities who are getting their drugs from 
somebody that would probably relate back to Sioux Falls, Sioux 
City, the major cities of the two. There is probably a nexus 
there. A lot of those people go undetected for quite a long 
time. Actually you would think in a small community they would 
be immediately identified, but people who traffic small 
amounts, and if they know and have known for years their 
clientele, people aren't willing to give them up as rapidly, 
especially in smaller communities, because they're actually 
relatives or friends.
    So sometimes what would appear to be very opposite, it 
would be very, everyone would be very upset in a small 
community, I believe they are, but it goes undetected and 
unknown for long periods of time. I do believe our drugs 
probably filter into those smaller communities.
    Mr. Thune. I guess I'm interested, Chief, in what you said 
too about the whole training effort.
    It would seem to me at least that part of the problem in 
our small towns is going to be detection, making sure you have 
people who understand what to look for. I think to me that 
would be, just from my observation listening to you all speak 
this morning, something that we are going to have to step up 
our efforts on.
    Mr. Frisbie. There is no question about that.
    As a matter of fact, the intelligence sharing is going to 
be extremely important there as well. We're actually building 
our intelligence network by when those people come in to train. 
We establish relationships with these other communities where 
before they have been kind of isolated. We didn't see them 
much. I think it's going to make a big difference. But we need 
to step up our efforts in training those individuals in the 
smaller communities. They literally have no training funds and 
no capabilities, and that's a tragedy.
    Ms. Westfall. Let me make a comment. One of the things that 
you need to keep in mind though, too, is that as you increase 
this training you will increase the amount of drugs being found 
and the need for more expendable equipment and equipment for 
the folks who are finding them.
    When we did the training across the entire State, the 6,000 
people, we wondered what impact that would have on the labs 
being found, and our numbers show it went from 320 up to 800 
some. We think at least some of that if not a lot of that 
increase is due to what happens when you train the folks. You 
need to not only provide for the training, you also need to be 
willing to go further and provide those people with the 
equipment and the capability to respond to what will be an 
increase in found drug activity.
    Mr. Frisbie. Like I said before, we often become victims of 
our own success. This whole thing funnels to all kinds of 
support services that are required once you get into these 
things. When you start identifying more labs, you know, we 
start buying pounds rather than ounces. It's not that it wasn't 
out there, it's our efforts increased and our capability of 
getting into these areas has been increased. Then we start 
making more arrests. We're dealing with large conspiracy cases.
    And I'll tell you a lot of our worries again, you look at 
the jail situation, the ability to process the drugs at the 
lab, different things of this nature, all support services out 
there with the INS, if we can get that straightened out.
    Mr. Thune. Last question, Mr. Chairman. Last question I had 
on this is when you catch the bad guys what is the success rate 
with prosecutions?
    Mr. Reilly. One of the things that we see on the task force 
level, we take many of our cases federally because a lot of the 
cases are large and the thresholds are met for Federal 
prosecution. The sentencing guidelines in the Federal system 
are much different than what we see in the State of Iowa. We 
have a problem in the State of Iowa with truth in sentencing. 
It's extremely poor. What sounds like a good deal, that you 
have got a drug dealer and he's going to get 10 years and he 
actually does 18 months, that's pretty disheartening. In the 
Federal system they will do 80 percent of their sentence.
    And the sentencing is just a very good structure, and we 
are having very good prosecutions in the Federal court system 
in our area. To go along with that, and what Chief Frisbie just 
mentioned too, as far as the support services to that, the U.S. 
Attorney's Office in Sioux City in 1993 had one drug 
prosecutor. Now they have five drug prosecutors. They had a 
district, a Federal district court judge and a part-time 
magistrate. Now they have a full-time magistrate and two 
Federal district court judges.
    One has taken senior status, but he's hearing full time 
cases primarily. It's working. The Federal system works 
slightly slower than the State system, but we are getting good 
sentences. And the Federal bite is a bigger dog than the State.
    Mr. Thune. Thank you, Mr. Chairman, and I thank the panel.
    Mr. Mica. I'm pleased to hear the comments about Federal 
prosecutions. They were going down, down, down. We finally got 
them going up, up, up. We're under a tremendous amount of 
pressure to change the minimum mandatory, from which I hear all 
the local witnesses that we have before our panel, do not 
change that. It is very effective, and it's a deterrent, at 
least those that are active traffickers and we catch them and 
convict them.
    I was just telling Congressman Latham that now we have the 
problem, we're getting prosecutions back up, but the 
administration now has, we've just got a report back that the 
sentencing is going down. So we're constantly trying to stay 
after the Federal enforcement prosecution and the judicial fuss 
to at least exercise the will of the Congress and the people I 
think in this case.
    I thank all of you for your testimony this morning. Chief 
Frisbie, you had said that you wanted a HIDTA director to 
provide some testimony. Who is that?
    Mr. Frisbie. Ken Carter has been the past HIDTA director.
    Mr. Mica. Rather than have him testify, we have to go 
through the swearing in and all of that, we have the panel, I'm 
going to ask unanimous consent that we submit questions to him. 
We'll do that so his testimony will be made a part of the 
record. And we'll have some specific questions that I already 
outlined to you that you said he could respond to without 
objection.
    I do again want to thank each of you for coming forward. We 
look forward to working with you, your local Members of 
Congress, to see that we can do a better job at addressing some 
of the problems you have outlined for us today. Thank you. 
We'll excuse this panel.
    Let me call the second panel. The second panel consists of 
two individuals this morning. The first is Linda Phillips, and 
Linda Phillips is the executive director of Siouxland Cares. 
The second witness is Carla Van Hofwegen, and she is on the 
board of directors of Hava Java, a local, I guess, faith-based 
organization. And both of them are testifying before our 
subcommittee today. Again I don't know if they were here when I 
made the introduction or comments. We do ask you to limit your 
oral presentation to the subcommittee to 5 minutes. You can 
submit lengthy testimony or additional data or information upon 
request to the Chair and that will be granted and made a part 
of the record.
    This also is an investigations and oversight subcommittee 
of the Government Reform Committee. We do swear in our 
witnesses. You will be sworn. If you will please stand, raise 
your right hands.
    [Witnesses sworn.]
    Mr. Mica. The record will reflect that the witnesses 
answered in the affirmative.
    I would ask the record reflect that the Chair recognizes 
first Linda Phillips, and she is executive director of 
Siouxland Cares. You are recognized.

  STATEMENTS OF LINDA PHILLIPS, EXECUTIVE DIRECTOR, SIOUXLAND 
 CARES; AND CARLA VAN HOFWEGEN, PRESIDENT, BOARD OF DIRECTORS, 
                           HAVA JAVA

    Ms. Phillips. Thank you. I have been the executive director 
of Siouxland Cares for the past 10 years. And primarily what 
Siouxland Cares is is a community anti-drug coalition. That's 
probably the easiest way to define it.
    First thing I want to do is thank Representative Latham. I 
think had he not stepped in years ago to really identify drug 
abuse as his No. 1 issue, we'd be talking about a lot of 
different things today than we are right now. The problem would 
be much, much worse. He has given us assistance as far as our 
community anti-drug coalition, as far as the meth training 
center, and the national anti-drug media campaign, he's also 
given support there and we would be talking about a much more 
serious problem, even though it is a serious problem that we're 
talking about today.
    I've seen the devastation that alcohol and other drugs have 
caused to individuals, families, businesses. The one thing that 
I do as an executive director is to really try to promote the 
wonderful things that are going on in our community, and I will 
do that in just a moment.
    But first I want to share some statistics with you. I think 
it's very, very important that you hear what's going on here 
locally as far as the methamphetamine issue. Approximately 12 
percent of the clients who are in treatment programs across the 
State of Iowa have identified methamphetamine as their No. 1 
drug of choice; 20 percent of those inmates have identified 
meth as the No. 1 drug of choice.
    I have worked for about 8 years with a group who is working 
on drug-exposed infants in our community. In the past 3 years 
we have had 32 drug-exposed infants. Of those six were exposed 
to methamphetamine, or 19 percent of the positive screens. One 
of those wonderful things that have happened once those ladies 
are identified and the babies are identified is we have an 
intervention team, and that intervention team is--their primary 
focus is to get help for that mom and that family. Of our 
students, 8 to 12 percent have used meth in the past.
    We have taken several surveys over the past couple of years 
and that's what has been identified. Those surveys have 
identified that drugs and alcohol are available to most youths 
in Siouxland. Students are most likely to use alcohol or other 
drugs at a friend's house in the evening. Engaging in high risk 
behavior is associated with alcohol and other drug use. And we 
know that. We thought we made a dent on kids drinking and 
driving, using drugs and driving. Something we've got to take a 
major look at again, because they are using alcohol and other 
drugs and they are driving. About two-thirds felt that it would 
be difficult for them to get methamphetamine. That tells us 
that one-third think it's pretty easy to get meth. That's an 
extremely high number if a kid can go out and get meth on the 
street. I think there are a lot of adults who have no idea 
where they can get it; 92 percent of those kids thought that 
meth was harmful, yet 9 percent of the seniors had used meth. 
We know that increasing awareness efforts will change the 
attitudes of kids. If they believe that a drug is harmful, they 
will be less likely to use. We know that, it's research-based.
    We do have several wonderful things going on in Siouxland. 
We have Siouxland Cares, community anti-drug coalition. We are 
part of a national youth anti-drug media campaign. We have a 
wonderful Website with lots of data available to us. We have a 
fairly new organization called the Siouxland Human Investment 
Partnership, and it is our local empowerment board.
    They also have a group called Community Alliance Treating 
Substance Abusing Teens, which is an intervention team at the 
high school level. We have a Tri-State Drug Task Force which 
you've heard. We have the meth training center. We also have a 
women's and children's treatment center run by Gordon Recovery 
Center. Women are able to go to a treatment facility that is 
residential and bring the children with them. That was one of 
the barriers we had identified in getting women treatment, was 
not being able to take their children with them.
    We have a wonderful new drug court that is both a juvenile 
and adult drug court. Community volunteers serve as panel 
members. Again, all about rehabilitation. The Air National 
Guard has in place a drug demand reduction program. The Iowa 
Poison Center provides information and consultation to 
emergency rooms about the toxic exposure such as 
methamphetamine. We have HIDTA. We have a Healthy Siouxland 
Initiative. We have identified drug abuse as the No. 1 concern 
in our community. And of course we work quite a bit with the 
Governor's alliance on Substance Abuse in Des Moines.
    While we have many, many wonderful services, we need to 
expand and strengthen our current prevention, intervention and 
treatment program. We need to reduce the demand for drugs and 
its availability. We need to provide parity for substance abuse 
and mental health on both the Federal and State levels. We need 
to provide a full array of treatment service options, 
especially in the rural areas. They're very lacking there. And 
we need to provide a continuum of care.
    We've learned a lot of wonderful lessons from 
Representative Latham on what we can do. Getting the Federal 
Government behind us to assist us locally is absolutely 
wonderful. We need to continue that. Again alcohol is our No. 1 
drug. I would be remiss if I did not state that. And that we 
need to take the lessons that we have learned from what we are 
doing as far as methamphetamine and apply those to other drugs 
as well. Thank you.
    [The prepared statement of Ms. Phillips follows:]

    [GRAPHIC] [TIFF OMITTED] T2448.024
    
    [GRAPHIC] [TIFF OMITTED] T2448.025
    
    [GRAPHIC] [TIFF OMITTED] T2448.026
    
    [GRAPHIC] [TIFF OMITTED] T2448.027
    
    [GRAPHIC] [TIFF OMITTED] T2448.028
    
    [GRAPHIC] [TIFF OMITTED] T2448.029
    
    Mr. Mica. Thank you for your testimony.
    We will withhold questions until we've heard the next 
witness. That's Ms. Carla Van Hofwegen, and she is president of 
the Hava Java board of directors. Welcome. You are recognized.
    Ms. Van Hofwegen. It is an honor for me to testify today 
before members of your subcommittee. I appreciate the 
opportunity to address both my concerns about and response to 
the methamphetamine epidemic in the Midwestern States of our 
country.
    As a life-long resident of northwest Iowa, I have observed 
many changes in our society. Increased global communication has 
made nearly any information almost anywhere in the world 
accessible within a few seconds. Families comprised of a 
husband and wife and their children are no longer the norm. 
Close family ties that once connected three or even four 
generations have been severed by a highly mobile society. The 
combination of this availability of knowledge, the structural 
change of the nuclear family and the decrease of 
intergenerational ties has opened the door to many 
opportunities to explore and experiment during increased hours 
of free time with less individual accountability. Society is 
ripe for the picking by people who profit from those who 
purchase, use, and become addicted to methamphetamine and other 
illegal drugs.
    The problem of illegal drug use inevitably affects the 
institutions of our society. School systems deal with those who 
are using, those attempting to free themselves of the 
addiction, recovering users, and those who choose not to use, 
but who live, learn, or work in environments influenced by drug 
users. During the 12 years from 1987 to 1999 I served on the 
board of directors of Spencer Community Schools the use of 
illegal drugs became increasingly evident. During the mid and 
late 1980's acceptability of underage cigarette smoking and 
alcohol consumption led to marijuana usage and eventually to 
experimenting with other addictive drugs. While pot smokers of 
the 1960's and 1970's looked on assuming that the reoccurrence 
of marijuana use wasn't really a problem, many of the teenagers 
of the 1990's progressed from smoking it to the use of other 
illegal drugs, one of them the highly addictive and readily 
obtainable methamphetamine, also known as meth, crank, crystal 
or ice. This experimentation and use by teens and other young 
adults has been further complicated by the fact that some users 
are also parents whose children's lives are shaped by their 
parents' unsafe choices. Thus, education systems find 
themselves dealing with the problem at the preschool and early 
childhood levels in addition to the middle, high school, and 
post-high levels.
    Families whose members become addicted to meth see the most 
direct effects of the drug's stronghold on the users. As they 
observe behavior and personality changes, they also have 
concern for the user's safety. Perhaps most often they wonder 
how they can help. Committing their loved one to treatment can 
be very difficult, while waiting for the use to acknowledge the 
need for treatment can be extremely worrisome and dangerous. 
Research shows that a drug treatment program is most successful 
when the addicted person voluntarily commits him or herself and 
when the program helps the user realize his or her need to rely 
on a higher power for the strength necessary to overcome the 
addiction. Even the most successful treatment programs are not 
always 100 percent failsafe after the initial treatment has 
been completed.
    Considering the negative societal ramifications of illegal 
drug use and the tenuous results of drug treatment, the more 
insightful way of responding is to attempt to prevent the 
problem from occurring at all.
    During the past 12 months I have been involved in the 
organization and opening of a not-for-profit coffeehouse in 
Spencer, IA, which welcomes people of all ages, but is 
especially inviting to teenagers and young adults. The Hava 
Java mission statement is: We will provide a comfortable 
coffeehouse atmosphere with the purpose of building 
relationships through Christian fellowship. In a non-
threatening safe haven using beverages, food, music, art, 
actions and other means, we will convey the message of Jesus 
Christ and his saving grace.
    Hava Java is guided by an 11-member board of directors 
comprised of community members from nine different churches in 
Spencer. It is staffed by nine high school students and two 
adults, which are part-time, paid employees, and one full-time 
manager. A student advisory team made up of high school 
students is being formed to give ideas and recommendations to 
the board of directors. The team will function under the 
supervision of two adults.
    Many individuals, service clubs, churches, businesses and 
other groups helped to meet startup expenses and are assisting 
with ongoing costs as needed. Open for just 7 months, Hava Java 
is striving to attain its goal to become self-supporting. The 
only government dollars received have been in the form of a 
grant from the city of Spencer. The grant, designated for 
infrastructure needs, is made up of a small portion of the 
moneys collected from a local 1-cent sales tax made available 
to local not-for-profit organizations.
    Hava Java is becoming known to our community and the 
Spencer area as a hangout and a haven, a safe place to meet 
friends, listen to good music, enjoy coffee, smoothies, sodas 
and snacks, read a book, play a game, or study. It is a place 
to have conversations about current issues or events, a place 
to discuss decisions or choices that must be made. Patrons may 
also appreciate live entertainment with a positive message and 
encourage local budding artists. Future events for Hava Java 
include improv nights, storytelling, poetry readings and other 
drama and visual arts presentations.
    It is the hope and prayer of the Hava Java board and staff 
that its welcoming environment will nurture the development of 
personal skills and significance through connections made and 
relationships formed and strengthened within its walls, perhaps 
the personal skills, significance, connections, and 
relationships which are reason enough to help make the choice 
to be drug free.
    Thank you for your attention to this serious issue and your 
consideration of how your subcommittee can aid our society.
    [The prepared statement of Ms. Van Hofwegen follows:]

    [GRAPHIC] [TIFF OMITTED] T2448.031
    
    [GRAPHIC] [TIFF OMITTED] T2448.032
    
    Mr. Mica. Thank you, Carla, for your testimony.
    Ms. Phillips, how is your organization funded?
    Ms. Phillips. We are a United Way agency.
    Mr. Mica. Do you receive Federal funds?
    Ms. Phillips. At this time we receive no Federal funds. The 
only Federal funds that we have received is through the K-Mart 
Foundation. That really isn't Federal funds, it's just 
designation.
    At this time we do not. We have applied for the Drug Free 
Communities Support Program.
    Mr. Mica. Your organization, Ms. Van Hofwegen, is strictly 
a private and community-based. We're certainly spending a 
tremendous amount of money and increasing it every year on this 
effort, and in a multi-faceted manner. The last several years 
we have started a $1 billion drug education and media campaign. 
$1 billion. The administration wanted to spend public money. We 
reached a compromise. The compromise was to have $1 billion of 
Federal funds and then that matched by local donations. That 
campaign has been a little bit over a year underway. Mostly 
funding television, radio, some newspaper ads in a national 
campaign in an effort on education and prevention. I'd like 
both of you to tell me your candid assessment of what you have 
seen so far of that Federal program.
    Ms. Phillips. The national youth anti-drug media campaign, 
is that what you're talking about?
    Mr. Mica. Yes.
    Ms. Phillips. We happen to be the local organization that 
is listed on the print ads for that. What I have seen, because 
I work with three youth groups around the community, probably 
almost 200 kids. We sat and had a discussion about this, and we 
said tell us about the ads, tell us about what you're seeing. 
The one thing they said was the meth ads scare me. Why would I 
be stupid enough to use meth. They scare me. They are very, 
very good. I think that's the one message that we need to get 
out. Again if they believe that it is harmful to them they will 
not use.
    Mr. Mica. Well, that conflicts a little bit with your 
testimony, because you said 90 percent of them now believe that 
it's harmful, yet you're running 8 to 12 percent of the 
students have tried it in this locale.
    Ms. Phillips. Have tried it, that's right.
    They have tried it in the past. The campaign has only been 
going for a couple of years.
    Mr. Mica. Just about a year. Has there been any recent data 
on the number of students now? Unfortunately I just had the CDC 
report last week, the Center for Drug Control. The statistics 
were absolutely alarming. It did follow your pattern about 8 to 
12 percent of the students nationally had tried meth, cocaine. 
In the Clinton administration I think it has doubled. Heroin is 
up dramatically, and not quite but almost a doubling of 
marijuana. And we had the folks in behind closed doors too to 
give us their assessment after they released this report. But 
since 1992-1993 we've seen an incredible surge, particularly 
among young people. Is this an effective use of your tax 
dollars?
    Ms. Phillips. I'm going to tell you that we now have the 
second annual survey that's being run right now probably to 
find out what the results are of that. I think that's going to 
tell us more on whether the methamphetamine use has gone down 
or not and the kids' perception of harm, I think that's really 
going to tell us a lot in this last year. The kids are seeing 
the ads.
    Mr. Mica. The meth ads are particularly effective. I guess 
they have been targeted for those kids because you have such a 
high incidence here. Maybe you could give me your assessment, 
Ms. Van Hofwegen.
    Ms. Van Hofwegen. To be honest, I'm not real familiar with 
your ads.
    Mr. Mica. You haven't seen the ads. That's very revealing.
    Ms. Van Hofwegen. They may have been on the radio, I may 
have heard them on the radio.
    Mr. Mica. That's one of the problems when people have not 
heard them. Some of them are targeted toward parents, 
specifically going out to parents, even grandparents. Then part 
of the problem is the intensity of the ads, have they reached, 
again you want to target and you want to have the saturation to 
have impact. We don't mind spending the funds on these 
programs, but we want them to be successful, and we have to 
have some measurement of their success. Finally if you were 
going to recommend that we put Federal dollars into some of 
these programs, education and prevention, how would you do 
that? And we have a problem a bit because your organization 
particularly is faith-based. We're trying to loosen some of the 
strings. Actually the most effective treatment programs have 
been in fact faith-based, and in most cases they run 60 to 70 
percent success rates, where the public-funded programs run 
that percentage in failure. Are you inclined for us to use 
taxpayer dollars in that fashion or what fashion to be most 
effective? Either/or both?
    Ms. Van Hofwegen. I would encourage the use of the tax 
dollars to be targeted toward parents. I feel having been on a 
school board for 12 years that I see that that's where the 
education is successful. If the parents are aware of what they 
need to do to prevent their children from experimenting with 
drugs, and if you can get that point across, the dollars won't 
have to be spent in the schools and elsewhere. I feel like 
there are so many parents that feel like they are powerless 
against what their kids are facing. If we can empower parents 
to remain parents through the high school years, I think that 
will be the most effective way to spend it.
    Ms. Phillips. I guess I'm one of these people that think 
real globally and I think that you have got to focus on the 
prevention, the education, the intervention, the treatment, the 
aftercare. It's not just a single focus. When you asked me 
before about the national youth anti-drug media campaign, 
that's one facet of what we need to be doing. Does it need to 
be stopped? No. It should be strengthened. Why? Because it's 
one facet of what we need to continue. We need to continue 
identifying model programs. We here in Woodbury County are 
using the comprehensive strategy process which is through the 
Office of Juvenile Justice and Delinquency Planning. It focuses 
on risk factors. What puts kids at risk?
    One of those is substance abuse. What puts kids at those 
risks? Let's identify those and then build a community plan. 
Make us be responsible for what we think locally we need to do. 
So when you ask where would we put the money, I'd say empower 
the local communities to take that funding and build a program 
that they need, using research-based, data-driven model 
programs. We will make that commitment to you that we will do 
that with funds that we receive. Yes, the media campaign is 
definitely one part of it.
    Our community has been a tremendous advocate of public 
service announcements, media campaigns. We run two PSA contests 
now for youths, one for radio, one for television, and I had a 
person from the local Sioux City Journal say why aren't we 
doing that in the newspaper. So we've got a lot of support 
locally for those kinds of things. We've got to continue to 
focus on that prevention and education which we have not gotten 
money for in the past, the prevention programs.
    Reducing the demand. The supply will be there as long as 
the demand is. We've got to reduce the demand. And we need to 
recognize at the same time, our treatment right now, the amount 
of dollars in treatment is very inadequate. We've got a lot of 
people, you know, we've got 12 percent admitting that meth is 
their No. 1 drug of choice, how many people aren't getting 
treatment who could admit that meth is their No. 1 drug of 
choice. We need to look at those issues. There are a lot of 
people not getting treatment just because of the cost of it.
    I personally, again I'm a real global type person. If we 
could give treatment to any kid that needs it, any kid that 
needs treatment, we would be saving so many dollars down the 
road because we know that treatment works, and prevention 
works. And as a local community we are working very, very hard 
to identify risk factors to try to reduce those.
    Mr. Mica. Thank you. The Chair recognizes Mr. Latham.
    Mr. Latham. Thank you very much, Mr. Chairman.
    I would like to first of all, as far as the drug education 
program, as I mentioned earlier, Siouxland was 1 of the 12 
pilot areas in the country when this was first proposed. And we 
were unique here in a little program we call incidentally the 
Latham Project, but to go out--surprise, I know. We were the 
only ones who went out and solicited contributions from the 
private sector here. I am just so proud of this community and 
the region here. Gateway gave us $100,000. UPS gave us $30,000. 
And that was matched with the Federal dollars. Duluth, MN, was 
our control city, in comparison with Siouxland after 5 months 
of the program. And I think what Linda is talking about is 
there's hopefully a long-term effect. What we found was that 
there was a greater awareness with the parents, which is 
critically important, but the biggest impact that it had was on 
the fourth, fifth, sixth graders and lesser through the middle 
school, and very little effect, while it scared them it was 
only temporary in the high school age, in that class or that 
group.
    I think it's going to be a long-term situation before we 
actually find out whether the message sticks with our young 
people, and with the impact that it has had. The most important 
thing we can do is wake up the parents and tell them to talk to 
their kids. I mentioned that earlier too. But statistically and 
everything else, the parents still have the greatest influence 
on that child. After having done 23 convoy drug meetings here 
in the district, we always set an hour and a half aside for the 
meeting. I can set my watch. In 45 minutes someone will finally 
get to the point, is there a way to get to parents.
    And my question would be to you, both of you, how do you do 
that? I mean, Linda, you do it with your organization, with 
your experience, Carla, on the school board and faith-based. If 
you had a meeting today you would have the best parents that 
talk to their kids come to the meeting. The people who you need 
to get to are staying home or they're off having their own 
marijuana, drinking beer some place. How do you get to them?
    Ms. Phillips. I'm a parent of three teenagers, going 
through all of these issues.
    Mr. Latham. You're way too young.
    Ms. Phillips. I know. Way too young, right.
    We had this in the late 1980's, early 1990's, the parent 
networking. I don't know about other parents, but I am told 
that I'm the only person out there asking questions. I'm the 
only person doing this, and I'll bet if you would talk to 10 
parents they would tell you that their kid is telling you that 
they're the only ones.
    I think what we need to do is we need to as parents figure 
out that we do have a role in this. I mean we need to be, and 
we can change behaviors based on what we do, which is exactly 
why kids are drinking a lot more now and we're seeing that 
number is because of the parents' influence. Oh, thank 
goodness, it's only alcohol. And that is the attitude that kids 
get. If we are much more strict with the kids, if we're talking 
to each other and we know what's going on, we know that 
someone's parent isn't home, we know what's going on, we're 
talking to each other and we quote catch them, it does make an 
impact. We are able to influence their behavior. Consequences 
are so important. Sometimes it's hard as a parent to give those 
consequences when you look around you and no one else is doing 
it.
    What we need to do is switch what the norm is. Switch the 
norm to non-use. Switch the norm back to where it was before. 
We need to do that. And as parents we can do that. Takes a lot 
of energy, takes a lot of time, but it doesn't take very much 
money, and that's the one thing that we need to remember. That 
doesn't take money. That's talking. That's getting parents 
together. It takes people just to be empowered to do that.
    Ms. Van Hofwegen. I would agree with everything she said. 
I'm also the parent of two teenagers, and it is very important 
to keep the lines of communication open with your children. 
However, I do think there's sort of a hopeless feeling when you 
say that the parents are either at home smoking their own 
marijuana or in the bars. I think it's really important, and I 
don't know if there can be any government dollars that can help 
you do this, those of us who really care about kids in our 
community to become a parent, a father or a mother figure to 
kids, and become that person that's really important in their 
life, to make the communication and connection. I don't know if 
there's any special way to do that.
    I think that for these kids, if their parents aren't going 
to take responsibility, then someone else does need to. Whether 
it be our churches or community organizations. I know in our 
town there is a Big Brother and Big Sister organization that is 
really doing a good job at making an attempt. I think we as 
community members better take over.
    Mr. Latham. I just wanted to say one additional thing about 
my pride of this community. When we got the money to run the 
ads on top of the PSA announcements, and incidentally our media 
here in Siouxland, in the State of Iowa did over half of the 
PSAs before. So that's a tremendous contribution. And what was 
really fascinating and something I never thought I'd hear a 
complaint about was the fact that our media people were 
somewhat offended that we would pay them and actually would not 
take the money. It was incredible. And it says a lot for this 
community.
    Mr. Mica. Thank you. The gentleman from South Dakota, Mr. 
Thune.
    Mr. Thune. Thank you, Mr. Chairman. I just want to credit 
both of you for the things that you're doing, obviously some 
great efforts are underway. To say that it seems to me when 
you're talking about prevention of course the best prevention 
is a mom and dad that love their kids enough to spend time with 
them, to take them to church and subject them to the kind of 
influences that will keep them away from bad choices. You know, 
we're always looking for a government solution to something 
that's fundamentally a family oriented issue.
    I guess I'd be curious to know, Carla, you mentioned here 
in your statement too that you have served on a school board 
for 12 years. What things in your mind could we be doing in the 
schools? I mean what activities could we do to help, the kids 
have their sort of communities, their family, hopefully their 
church and they spend an awful lot of time at school. From that 
aspect of it how do we, what can be done at the school levels 
to help deter them from getting involved in drugs?
    Ms. Van Hofwegen. I think a shift in the attitude of the 
schools toward parents. I was a teacher before I was a school 
board member. I remember in the late 1970's seeing signs on the 
doors of the middle school, please report to the office, 
visitors are welcome but please report to the office. It's sort 
of a stay out type of statement.
    I think schools are really trying to let parents know they 
want to work with them. They know if they open up the lines of 
communication, especially in those homes where there are 
difficulties, that the students will see the families and the 
schools trying to work together. I also think that we 
discouraged groups like PTAs for sometime and now they're 
trying to resurrect interest in them again. At least in our 
community, they're trying to get a parent group in each of our 
schools in the community. And I think that will help. There 
again, you often get the parents who already, sort of have it 
all together that come to those meetings. But we need to 
encourage other parents to do that as well.
    I do know the public school in Spencer is also getting 
involved more on the preschool level, which is the area that 
truly you're going to prevent problems. If you can get involved 
with the families at that point, that will help. The school 
doesn't have all the answers. I do see a big change from when I 
was a teacher until now. The teachers have a much bigger 
responsibility toward those kids. It's very important to 
include the families in the educational process, and to 
encourage them to give their input, to let them know that 
you're working together to help the students.
    Ms. Phillips. Could I respond?
    Mr. Thune. Sure.
    Ms. Phillips. One of the things that we have here, it's 
just been started for a few years, so we don't know the long-
term impact on it, but we do have what we call social health 
groups at our schools, and that is run through the Action 
programs and the SHIP, but what it is is where a team of 
parents--excuse me, a team of educators are meeting with 
Juvenile Court Services and meeting with the other various 
agencies, the Department of Human Services in our community and 
they are identifying at a very young age some of the problems, 
behaviors within these kids in the schools, and they are then 
basically forming a case management plan, bringing the family 
in and discussing what's going on. I think we're going to see a 
great impact in the future from really surrounding the 
resources and our whole thing with the comprehensive strategy 
is the right resource for the right youth at the right time.
    That's what we're really trying to do, is to surround that 
kid and provide a safety net for them as they move up in the 
years. Because one of the things we've identified is academic 
failure beginning in early elementary school--in late 
elementary school, excuse me. If those kids are not going to 
get what they need at an early age they're going to fail. 
They're going to be a statistic to us and they're going to be 
in the community and we're going to have problems with them. 
Our school board and local agencies are really working hard for 
that.
    Another thing I just have to say is I am an advocate of 
DARE. I know there are a lot of people who have knocked DARE 
down and drug it through the coals. I am an advocate. In that 
year that they are in DARE, whether it's 11 weeks or 16 weeks, 
talk to those kids, those kids are going to tell that you 
they're not going to use drugs and they're going to identify 
people who are using drugs and they're going to realize all 
those things. But then don't teach the kid anything else about 
it and expect them to remember it.
    When we were in another hearing at one point they were 
talking about teach your kid math in the fifth grade and expect 
them to remember it when they get to high school? It's not 
going to happen. We need structured curriculum in our schools 
from kindergarten, preschool actually, kindergarten all the way 
through, curriculums that talk about it, that talks about 
methamphetamines. You can't expect the teachers to go out and 
research all of these things and bring them back to their 
classroom. Some do that. But it's going to be very 
inconsistent.
    We need structured curriculum. We need to be telling these 
kids the same message, and it needs to be very clear and it 
needs to be very consistent. If we're not going to do that, 
there's not going to be the big hope at the end that they're 
all going to remember what's going on, because they're not 
going to remember it if we're not constantly telling them, 
which is one of the reasons that these ads are good. They're 
giving the same clear consistent message. And they're there all 
the time telling us that. We need to always be reminded, 
whether we're young people or adults.
    Mr. Thune. I appreciate that. Now there is going to be a 
followup question to my original question on what schools can 
do as to whether there ought to be a structured part of the 
curriculum that addresses that. In visiting with law 
enforcement people and even with kids themselves, these 
problems are cropping up at a much earlier age. A lot of times 
we used to think it was high school before you were subjected 
to all these temptations and pressures. But anymore they're 
saying they start to identify these trends not just in middle 
school but prior to that, and I do think there has to be an 
after DARE or something that reinforces that message as they 
move on into the higher grades too. And I'm a big fan of the 
faith-based approach and the things that are going on out 
there, it's a wonderful program and I want to credit both of 
you for the things that are happening. I think it's all part of 
the solution. But we definitely have our work cut out for us. 
It's a challenge, and I guess we're all obviously looking for 
anything that we can do to enhance the successful things that 
are already underway and to find out if there are things that 
we aren't doing that we ought to be doing. Thanks for your 
testimony.
    Mr. Mica. Thank you, gentlemen. And I also want to thank 
both of these witnesses for coming forward today and providing 
our subcommittee with their insight and recommendations. And 
particularly thank you for the contribution that you're making 
in your communities and localities, in again what is one of the 
most serious challenges I think any one of us face as parents, 
Members of Congress or involved citizens. We thank you so much, 
and we'll excuse you at this time.
    And I'll call our third panel. Our third panel consists of 
two witnesses this morning. The first panelist is Leroy Schoon. 
The second, and I'm sorry, he is with Schoon Construction. The 
second panelist is Jamey Miller, and he is with Rudy Salem 
Staffing Services. Both of these individuals I want to welcome 
also.
    Again, this is an investigations and oversight subcommittee 
of Congress. If you have lengthy statements we'll make them a 
part of the material on request to the Chair. With that I'm 
also going to swear you in. If you will please stand, Raise 
right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. Let 
the record reflect that. I'd like to welcome both of you this 
morning.
    At this particular time recognize Mr. LeRoy Schoon for his 
testimony and comments. I understand you have a drug testing 
program as part of your employment, and we're anxious to hear 
about your experience. Thank you, sir. You're recognized.

STATEMENTS OF LEROY SCHOON, PRESIDENT, SCHOON CONSTRUCTION; AND 
           JAMEY MILLER, RUDY SALEM STAFFING SERVICES

    Mr. Schoon. Thank you, Mr. Chairman. Schoon Construction, 
Cherokee, IA. We specialize in fiber optics and general 
excavation construction. We work with municipalities and 
communication companies. We employ approximately 130 employees 
in our organization.
    In 1999 our company implemented a 100 percent pre-
employment drug screening. We were having trouble finding good 
employees, so we decided we have to do that. And we went first 
to a random drug screening of 50 percent throughout our entire 
company, and we were not getting results we needed. We went to 
100 percent, and it has done tremendously well. We will spend 
approximately $10,000 in the year 2000 for drug screening new 
applicants and random drug testing.
    Drug screening has helped eliminate the illegal drug use in 
our workplace. But we feel it does not cure the drug problem in 
the work place and in the community. The reason for that is we 
have people that we have to come up, they come up with drugs, 
we have to terminate them or suspend them to get evaluated and 
get rehabilitated. They don't go to rehabilitation. They go 
down the street and go to another employment and find 
employment that they don't have to be drug screened. Our 
opinion is that we're just transferring our problems and 
confining it into one area.
    I'd like to list below some of the problems the employers 
have with illegal drug users in the workplace. We've 
experienced these. Employees are injured or killed. Equipment 
gets damaged because of not being alert. Property damage claims 
rose tremendously high to people that you're working with. The 
quality of work goes down. Poor productivity is a big result. 
As a result of this, insurance costs skyrocket for all 
employers because the insurance costs are shared through 
everyone. So if one company does a good job and three companies 
don't, we still help pay for that. We feel the solution is that 
we need to have 100 percent drug screening for all employees. 
Our company has already seen an improvement in applicants. 
We've had better applicants come in the door because the other 
ones aren't going to come in because they aren't going to get 
through anyway. Reduction of property damage and workmen's 
compensation claims since we have run this program has been 
reduced. We have a better experience model for our insurance 
carrier.
    If we can solve our problems, we need all sectors of 
business and government to work toward the same goal. Thank 
you.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Schoon follows:]

    [GRAPHIC] [TIFF OMITTED] T2448.033
    
    Mr. Mica. We'll now hear from Jamey Miller. He's from Rudy 
Salem Staffing Services. Mr. Miller, you're recognized.
    Mr. Miller. My name is Jamey Miller. I work with Rudy Salem 
Staffing Services. I also run a safety division out of that. 
Back in about March 1998 I was approached by Senator Steve King 
and asked if I would be interested in conducting onsite drug 
testing. I thought, hey, that's an opportunity for me to be, 
just getting out of the Navy and stuff, moving back to my home 
town, I felt it was a good opportunity for me to grow and stay 
in the community. That ended up branching out into stuff like 
what LeRoy's doing here.
    The Drug Free Workplace Act was passed in April 1998, and 
I've been going on since then. I've seen firsthand what drugs 
can do to a person, their family, their bank account, their 
life and their future. I also know the extremes that people 
will go through in order to pass a drug screen. They try to 
adulterate their urine. They will put anything from bleach in 
there to dirt, whatever. If you can think of it they have tried 
it. There's all sorts of remedies out there. Some of them work, 
some of them don't. If you're trying to get a job and a good 
paying job, you have a 50-50 chance of passing or getting 
caught, it's really not worth the hassle.
    If you already have a good job and you're doing drugs and 
they implement the random drug screen at your workplace you're 
going to get caught, so it's not worth losing your job.
    I think the firsthand experience I've had has made me very 
knowledgeable in this field of onsite drug testing. In the past 
26 months I've personally administered 1,396 onsite drug tests. 
I've had 1,107 negatives, and I've had 289 people walk out on 
me, or I could assume those would be positive. Basically that 
means to me that 289 people refused to take the test and deny 
themselves employment. I guess their bad habits are more 
important than feeding their kids and paying their bills.
    I think that the new Drug Free Workplace Act has done some 
good, but I think right now the employers around here, I only 
have maybe two or three accounts or clients that are 
participating in this. I think they're afraid. Right now the 
unemployment rate in Sioux City, the last I heard was like 3 
percent, so most of those people are either housewives or 
disabled people or they're retired or whatever. So the rest of 
the people around here are working. Basically I think about 74 
percent of the population in Sioux City uses drugs, this is 
from my point of view. It's hard when you're trying to run a 
staffing service. Our business is helping people find a job, 
but how are you supposed to employ these people when they can't 
even walk through the door and pass a drug test. There's a 
definite problem here, and it's right here, right here in Sioux 
City.
    Then we also have an office up in Spencer, IA. And as they 
were mentioning before, when I was hired by Salem Management to 
be the safety director they had a mod rate that was so high 
because of injuries due to accidents on the job and people not 
paying attention to what they're doing, it cost $200,000 or 
$300,000 a year for a small business to have work comp 
insurance. I also do OSHA compliance, EPA compliance and stuff 
like that. Since I've implemented my policies and stuff, we 
have dropped our mod rate down, just the corporate office, down 
to point 65 which is pretty good for a staffing industry.
    However, the problem we're having now is that we opened up 
an office in Spencer about 5 years ago, Spencer, IA, and Sioux 
City's got quite a large, a lot more population here compared 
to Spencer, and now Spencer, their mod rate or their work comp 
claims are doubling what I have down here in Sioux City, and a 
lot of that has to do, I believe, with the drug abuse.
    So I'd like to wrap it up by saying that's all I have to 
say.
    Mr. Mica. Thank you for your testimony.
    I compliment you both for the initiatives you've taken to 
try to ensure a drug free work place and work force. I think 
it's a model for other companies. If we had more private sector 
participation in this regard, we'd have a lot less drug abuse. 
One of the problems that we have is we do have people who use 
drugs, and we have the problem of trying to get them into some 
effective treatment. Have any of you had experiences, do you 
have any part of your program, Mr. Schoon, which puts these 
folks into treatment or gives them some opportunity to be 
treated if they're found with a positive result?
    Mr. Schoon. What we've tried to do, if we have a person 
come up we call hot, we will pay for the evaluation.
    Mr. Mica. So you do give them an opportunity to clean up 
their act?
    Mr. Schoon. Yes. If it takes rehabilitation, if it's a real 
serious case, we'll try to find them some temporary work or if 
they succeed we'll offer them their job back.
    Mr. Mica. What kind of success have you found with that 
treatment or rehabilitation?
    Mr. Schoon. What we have found is our success hasn't been 
good. They will go for rehabilitation maybe for 3 or 4 days, 
they leave and go find other employment, they say I have to 
make a living. We cannot pay them the salary while they're 
getting rehabilitated. In Iowa here just what happens, they 
will go down the street and find a job, and they will continue 
their habit.
    Mr. Mica. So the lasting of effective treatment is a 
problem and then also getting individuals to stick to treatment 
or follow it through is part of the problem?
    Mr. Schoon. That's correct. We've had one case where a 
young man, he left employment, we suspended him, he was 
supposed to take 3 weeks of rehab.
    He didn't continue that. He quit. He went to Des Moines to 
get a job. He said he had to make a living. He come back and 
about 9 months later, he said he had been cured, he 
straightened out. OK. You have got to take a new drug screen, 
we'll give you another chance to hire. I took him up, paid the 
fee at the hospital for drug screen, this is $47 for us. Come 
up hot. The applicants will come in and they're first informed 
that we do drug screening. It's no problem, I'm not on it. We 
take them in, it will come back, they're hot. Or they will call 
back the next day and say I can't work for you, I'm going to 
come up hot. So we've already spent the money.
    Mr. Mica. One of the problems we have, contrary to the 
perception out there, is actually Congress has more than 
doubled the amount of money for treatment if we take in all of 
the different programs since 1993, and the last 5 years under 
the Republican control, the Congress has increased the 
treatment some 26 percent.
    I don't think any of us have a problem with increasing the 
money for treatment. The problem is getting effective treatment 
programs, one, and then also getting people to even go to the 
treatment. We held a hearing in Baltimore where people who have 
been sentenced for offenses met most of the requirements, and 
part of their sentencing is to go to treatment. Less than 50 
percent show up even under court order.
    Of course you're dealing with a situation where you have 
absolutely no control over these individuals, only the 
possibility of their being employed, and with a tight job 
market here and throughout the country, they just go somewhere 
else is basically what you're both testifying. Are you seeing 
the same thing? Mr. Miller.
    Mr. Miller. Yes, sir. In our line of work we deal with 
people, top executives all the way down to general laborers 
daily. I deal with the whole spectrum of the population. What 
we're finding out is--I opened up a day labor here in Sioux 
City about 2 months ago, and our building is located right next 
to the Federal building. In any given day, there are 10 people 
that come into my office and I can't put any of them to work 
because they're hot.
    Mr. Mica. They have a drug problem.
    Mr. Miller. They're either drunk or----
    Mr. Mica. Drugs or alcohol.
    Mr. Miller. Yeah, there's something wrong with them. We 
can't put them to work. They can't speak right, they stutter. 
Too much of a risk. But they have to eat. They have to live. So 
most of these guys sleep under bridges. They live at the Gospel 
Mission, things like that.
    Mr. Mica. Is there anything that we're doing that we could 
do a better job at from the Federal standpoint or through, 
we're now block granting or sending money to the States, send 
money to local programs, is there something you see a greater 
need for that we aren't doing or that we can do in cooperation 
with local agencies to address this problem?
    Mr. Miller. I think part of the way to kind of fix this 
would be to let employers know that they have the option, the 
way the Drug Free Workplace Act, the way the law is written, 
you don't have to send a person to treatment. I mean just 
depends on what you want to do with that person. Right now the 
employment rate is so low that you're afraid, if we do this 
random thing, we're going to lose all these people. I think the 
biggest thing we need to do is educate employers as far as 
implementing drug testing. It's OK to do a random test. You're 
not going to lose your whole work force, I don't think. That's 
your choice.
    Mr. Mica. Anything, Mr. Schoon?
    Mr. Schoon. I'd like to comment on that. We have found 
since we implemented the 100 percent drug screen and the pre-
employment, we're finding a better rate of applicant coming in. 
I think it's scaring some of the other ones that are on drugs 
away. I went to different contractors, fellow contractors and 
said, hey, you know, you need to get on a drug screening 
program, you need to do a drug screening program. We're kicking 
them out of our place, they're coming down to you and going to 
work, and I said pretty soon you're going to have everybody 
hot. What's it going to do to your workmen's comp and your 
general liability. It's going to make your risk higher. He 
said, well, what are we going to do, we need help. That's one 
of the problems they're faced with. They think, you know, 
money's not the issue I don't think. It's just an incentive for 
the employers to be able to go in and do this. Maybe the 
insurance companies need to offer more incentive for employers 
who are doing a good job with drug screening and that would 
help encourage the ones that aren't doing it, realizing there 
are a lot of smaller companies out than we are, but the 
resources are there. If there are only ten employees they can 
still get this done.
    Mr. Mica. Thank you. Let me yield to the gentleman from 
Iowa, Mr. Latham.
    Mr. Latham. I want to be very brief. We have both to be 
tonight in Washington, we cannot miss a flight here today. 
There's much debate and has been for years in Congress about 
the Federal role on funded mandates on States and small 
business. Are either of you suggesting from the Federal level 
that we should mandate drug screening in the workplace?
    Mr. Schoon. I think, Mr. Latham, it needs to come from our 
Iowa Legislature.
    Mr. Miller. I agree.
    Mr. Latham. I would agree with you. I don't think--it is a 
State situation and based at that level and also at least 
allowing individual businesses to drug screen so there's no 
prohibition as some people would like to have. That was a 
debate that went on for several years. I know about the State 
legislature not even allowing you to screen in the workplace. I 
appreciate that. Thank you both very much for being here.
    Mr. Mica. Thank you very much, Mr. Latham.
    The gentleman from South Dakota, Mr. Thune.
    Mr. Thune. Thank you, Mr. Chairman. I'm glad to hear that 
in Iowa you are State's rights advocates as we are in South 
Dakota. I just have one observation or question. You mentioned 
the cost of drug testing. Have either of you done an analysis 
of what the lost productivity cost is? Can you quantify that as 
a percentage of your bottom line or dollar figures in any way?
    Mr. Schoon. I have not been able to do that. I do know 
we're tracking for costs and time spent in interviewing 
employees and taking them up for drug screening, but a factor 
of percentage of sales I don't have that at this time.
    Mr. Miller. Neither do I.
    Mr. Thune. I know it's probably rather difficult to come up 
with, to put a quantitative, attach that to it, but I think 
it's obviously a concern in the workplace, and it's got to be 
not just the cost of drug screening and all that, but I would 
think too just the loss of productivity as a result of the 
effects the drugs have on people who are using.
    So anyway I again appreciate very much your testimony. I 
will yield back to the chairman as well in the interest of 
time, but appreciate you taking the time to do what you did.
    Mr. Mica. I also want to thank each of you for coming 
forward and sharing with us your experience and the 
contribution you have made in the workplace, work force setting 
an example which you have done. That's to be commended. If 
every employer stepped in and followed your lead, we would have 
a lot fewer problems, and we appreciate your insight.
    I particularly appreciate the insight of all the panelists 
today, the law enforcement, the local community, both private 
and public, that have testified before our subcommittee. Each 
of these field hearings gives us better insight as to what's 
going on throughout the country, so we can do a better job in 
Washington trying to address some of the serious problems that 
we're facing.
    Again, Iowa, South Dakota, this whole region is not alone 
being victimized by illegal narcotics. This is an incredible 
national challenge. I get to see it chairing the subcommittee, 
and it again is one of the greatest challenges I think we have 
ever faced in Congress, as parents, as community leaders or 
employers. So I thank you for the invitation.
    Mr. Latham. I thank you, Mr. Thune, for joining us today. 
Both of you represent incredible geographic areas. Mr. Thune 
has a huge, huge, huge district. I can't even imagine 
representing an area that large.
    I saw on the map this morning the size of Mr. Latham's 
district. You do an incredibly responsive job again in 
representing the people of this area, they're great people. As 
I said earlier, I had a chance to live among, work among and be 
part of the business community and have the greatest respect 
for you. So I thank each of you for allowing me to come here 
and hopefully learn and work with you as we move forward to 
meet this challenge.
    Mr. Latham.
    Mr. Latham. Yes. I just want to again thank you for making 
the extraordinary effort to be here.
    Mr. Mica. It was.
    Mr. Latham. And again I hope the folks here recognize the 
tremendous responsibility the chairman has, and the leadership 
in Congress that you have shown has been incredible on this 
issue, and it's been an honor and a real privilege for me to 
learn from you and to work with you, and I appreciate it, as 
well as my great friend and colleague here and my neighbor, 
John Thune. I just want to thank each of you.
    Mr. Mica. Thank you again so much. There being no further 
business to come before the Subcommittee on Criminal Justice, 
Drug Policy, and Human Resources, this hearing is adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2448.034

[GRAPHIC] [TIFF OMITTED] T2448.035

[GRAPHIC] [TIFF OMITTED] T2448.036

[GRAPHIC] [TIFF OMITTED] T2448.037

[GRAPHIC] [TIFF OMITTED] T2448.038

[GRAPHIC] [TIFF OMITTED] T2448.039

[GRAPHIC] [TIFF OMITTED] T2448.040

[GRAPHIC] [TIFF OMITTED] T2448.041

[GRAPHIC] [TIFF OMITTED] T2448.042

[GRAPHIC] [TIFF OMITTED] T2448.043

[GRAPHIC] [TIFF OMITTED] T2448.044

[GRAPHIC] [TIFF OMITTED] T2448.045

[GRAPHIC] [TIFF OMITTED] T2448.046


</pre></body></html>
